<html>
<title> - HEARING ON IMPACT OF FEDERAL LAND USE POLICIES ON RURAL COMMUNITIES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  HEARING ON IMPACT OF FEDERAL LAND USE POLICIES ON RURAL COMMUNITIES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                      JUNE 9, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-90

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 49-510 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 9, 1998........................................     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, prepared statement of....................    61

Statement of Witnesses:
    Arnold, Ron, Executive Vice President, Center for the Defense 
      of Free Enterprise, Bellevue, Washington...................     2
        Prepared statement of....................................    37
    Conley, John, President, Concerned Alaskans for Resources and 
      Environment, CARE..........................................     4
        Prepared statement of....................................    37
    Favreau, Leon, President, Multiple Use Association, 
      Shelburne, New Hampshire...................................     6
        Prepared statement of....................................    38
    Gomez, Edmund, National Commission on Small Farms, Alcalde, 
      New Mexico.................................................     7
        Prepared statement of....................................    54
    McKeen, Hugh B., New Mexico Cattle Growers Association, 
      Glenwood, New Mexico.......................................     9
        Prepared statement of....................................    55
    Propes, Mike, Polk County Commissioner, Dallas, Oregon.......    25
        Prepared statement of....................................   119
    Richardson, Jack, Val Verde County Administrator, Del Rio, 
      Texas......................................................    27
        Prepared statement of....................................    60
    Wesson, Donald R., Southern Pine Regional Director, Pulp and 
      Paperworker's Resource Council, McGehee, Arkansas..........    24
        Prepared statement of....................................    59

Additional material supplied:
    Center for the Defense of Free Enterprise, Report by, 
      ``Battered Communities''...................................    63
    Recent Foundation Grants for green advocacy groups...........   116
    The Boston Globe, ``The greening of a movement'' and 
      ``Environmental donors set tone''..........................   102



  HEARING ON IMPACT OF FEDERAL LAND USE POLICIES ON RURAL COMMUNITIES

                              ----------                              


                         TUESDAY, JUNE 9, 1998

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m. in room 
1324, Longworth House Office Building, Hon. Helen Chenoweth 
presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. [presiding] The Committee on Resources will 
come to order. The Committee is meeting today to hear testimony 
on the impact of Federal land use policies on rural 
communities. Under Rule 4(g) of the Committee on Rules, any 
oral opening statements and hearings are limited to the 
Chairman and Ranking Minority Member, and this will allow us to 
hear from our witnesses sooner and help Members to keep to 
their schedules. Therefore, if other Members have statements, 
they will be included in the record.
    Today's hearing is designed to hear from working citizens 
from outside the Washington, DC, beltway, and they will testify 
about how Federal land use policies affect rural communities. 
The news media constantly reminds us that Microsoft 
millionaires and the affluent young urban professionals are 
succeeding, and we are all thankful that many in America are 
prospering, but, unfortunately, the media tends to tune out to 
what is happening in rural America.
    Many of my rural communities in Idaho that are dependent on 
timber, mining, ranching and other resource industries are not 
enjoying the good economic times of their urban cousins. Mine 
closures, mill closures, canceled shifts and AMU reductions are 
becoming a regular occurrence. Indeed, there is a prosperity 
gap developing between rural and urban America. In my State and 
other western States, Federal policies are locking up our 
natural resources. These policies contribute to the prosperity 
gap between urban and rural communities.
    But the West is not the only region affected. Federal 
policies now pose a significant threat to rural communities in 
the eastern States. One individual policy generally does not 
cripple these communities, but the cumulative impact of many 
such policies really can destroy them.
    I welcome all of today's witnesses and their insights about 
what is really happening in rural communities. I will learn a 
lot from you. The geographical diversity of today's witnesses 
show this is more than a war on the West, as people from 
private land States such as New Hampshire, Arkansas and Texas 
will discuss Federal policies that threaten the prosperity and 
harmony of our rural communities.
    I look forward to hearing from an old friend, Ron Arnold, 
about a fascinating study done that outlines the extent of pain 
and suffering in resource-dependent communities. I also want to 
hear and learn from the many other witnesses that we have here 
today.
    Our last panel today includes representatives from 
communities that are fighting the American Heritage Rivers 
Initiative. I have aggressively worked to end this illegal and 
ill-fated program by sponsoring legislation and filing a 
lawsuit in Federal court, and I have only just begun my fight.
    Our witnesses today all represent communities where their 
local Congressman or Senator thought they had opted out of the 
program, yet the bureaucrats at the Council on Environmental 
Quality are moving full speed ahead. These people are 
justifiably asking what part of no doesn't this Federal 
administration understand.
    Again, I welcome all of our witnesses today and those in 
our audience with the Fly In for Freedom. And I look forward to 
the testimony from the Ranking Minority Member when he does 
come in.
    [The information referred to follows:]
    Mrs. Chenoweth.  I'd like to introduce now our first panel: 
Mr. Ron Arnold, executive vice president, Center for the 
Defense of Free Enterprise; Mr. John Conley, president of the 
Concerned Alaskans for Resources and Environment; Mr. Leon 
Favreau, president, Multiple Use Association; and Mr. Edmund 
Gomez, National Commission on Small Farms; and Mr. Hugh McKeen, 
New Mexico Cattle Growers Association.
    As explained in our first hearing, it is the intention of 
the Chairman to place all witnesses under oath. This is a 
formality of the Committee that is meant to assure open and 
honest discussion and should not affect the testimony given by 
witnesses. I believe that all of the witnesses were informed of 
this before appearing here today, and they have each been 
provided a copy of the Committee rules.
    Now, if you would all stand and raise your hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Now, I will introduce our first witness, 
Mr. Ron Arnold, executive vice president for the Center for the 
Defense of Free Enterprise.
    Let me remind the witnesses that under our Committee rules, 
they must limit their oral testimony to 5 minutes, but that 
their entire testimony will appear in the record. We will also 
allow the entire panel to testify before I and any other 
Members who join me will be questioning the witnesses.
    Now the Chair recognizes Mr. Ron Arnold.

 STATEMENT OF RON ARNOLD, EXECUTIVE VICE PRESIDENT, CENTER FOR 
      THE DEFENSE OF FREE ENTERPRISE, BELLEVUE, WASHINGTON

    Mr. Arnold. Thank you, Madam Chairman.
    Madam Chairman, members of the Subcommittee, my name is Ron 
Arnold. I am testifying as the executive vice president of the 
Center for the Defense of Free Enterprise, a nonprofit citizen 
organization based in Bellevue, Washington. The Center has 
approximately 10,000 members nationwide, most of them in rural 
natural resource industries.
    Madam Chairman, I am proud to state that the Center does 
not accept government grants and has not received any 
government funds since the day it was established on American 
Bicentennial Day, July 4th, 1976.
    Madam Chairman, I would like to thank you on behalf of our 
members for holding this hearing today. It is timely indeed.
    For the past year, at the urging of our increasingly 
concerned Members, the Center has been conducting an in-depth 
study of Federal policy and rural communities. Our 36-page 
study titled Battered Communities is being released at this 
hearing. You will find it attached to my hearing statement.
    Battered Communities was cosponsored by three other citizen 
groups, the American Land Rights Association, F.I.G.H.T. for 
Minnesota, and the Maine Conservation Rights Institute. 
Battered Communities delves into serious matters of Federal 
policy as it affects rural community life. On page 5, we 
address the most obvious problem, the urban-rural prosperity 
gap, the spread in wages and unemployment between the richest 
and poorest counties within each of the 50 States. I am not 
proud to announce that my State, Washington, is the top of that 
list with the worst gap.
    While urban America today enjoys an economic boom, rural 
counties are finding themselves choked to death by Federal 
restrictions designed to protect the environment from the 
people who live and work in the environment. The most 
disheartening aspect of the conflict over the environment is 
that rural goods producers, ranchers, loggers, miners, are 
becoming a despised minority, morally excluded from respect and 
human decency, even in Federal documents, as we see on page 7 
of the report in an Environmental Impact Statement 
characterizing miners as costly, destructive, stupid social 
misfits.
    And now we turn to the visible damage. Rural communities 
are besieged with a bewildering array of Federal policies 
forcing them to starve in the midst of plenty. These policies 
are listed in part on page 8 of the report.
    Madam Chairman, let me call your attention to the most 
serious problem our study uncovered, the systematic effort of a 
triangle of interests to harness Federal policy to their own 
agenda, against natural resource goods producers. The Center 
has identified a small corps of activist Federal employees, 
from the highest levels to on-the-ground technicians, working 
to reshape Federal policy from within according to agendas that 
paralyze goods production in rural communities. Pages 13 
through 17 discuss a few of these activist Federal employees. 
To see their impact, you will find on page 24 of the report a 
chart of systematic timber sale appeals on two rural national 
forests in Washington State, the Okanogan and the Colville, and 
these appeals were filed in a coordinated pattern by a bevy of 
environmental groups. We found the frequent outcome was that 
the Forest Service simply withdrew the timber sale with-

out even ruling on the appeal. The resulting mill closures are 
charted on page 25.
    This certainly appears to be undue influence, and it is a 
national problem, yet that is not the whole story. These 
environmental groups were in many cases acting at the behest of 
their donors on grant-driven programs not designed by the 
environmental groups, but originating within grantmaking 
private foundations. We discovered in documents, such as this 
thick directory of environmental grantmaking associations--
foundations, a cluster of multimillion-dollar campaigns 
designed to set public policy against logging, mining, ranching 
and other resource producers according to the private 
preferences of a few custodians of vast wealth.
    Some of these foundations do not even accept applications 
for grants, but design entire programs of social change 
themselves and handpick the groups that will act as their 
agents, pushing nonprofit laws to the edge. In the hands of 
these privileged people, Federal policy is being corrupted into 
a blunt instrument, battering rural communities.
    Madam Chairman, these are serious charges. On page 35, the 
Center recommends that this Committee continue its attention to 
this vital issue with a detailed investigation of the causes 
behind America's rural Battered Communities. The Committee, of 
course, may take any or all of the pages of this report and 
make them a part of the report.
    Thank you again, Madam Chairman, for holding this hearing 
on the anguish of rural America.
    Mrs. Chenoweth. Thank you very much, Mr. Arnold, for that 
outstanding testimony. It was riveting.
    [The prepared statement of Mr. Arnold may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair recognizes Mr. John Conley.
    Mr. Conley?

  STATEMENT OF JOHN CONLEY, PRESIDENT, CONCERNED ALASKANS FOR 
                RESOURCES AND ENVIRONMENT, CARE

    Mr. Conley. Madam Chairman, my name is John Conley, and I 
am the president of Concerned Alaskans for Resources and 
Environment, CARE. I have also served 6 years on the Ketchikan 
Gateway Borough Assembly, and I operate three NAPA auto parts 
stored located in Ketchikan, Craig, and Wrangell, Alaska.
    The passage of the Tongass Timber Reform Act of 1990 was 
supposed to be the great compromise for the Tongass National 
Forest. TTRA was supposed to provide increased environmental 
protection, as well as a sustainable forest products industry. 
I have--since the passage of TTRA, I have witnessed the closing 
of two pulp mills and several sawmills in southeast Alaska. At 
the same time I have witnessed the increased funding of local 
environmental groups by tax-exempt national foundations.
    These closings have greatly affected both my business and 
my community. In Ketchikan alone we've lost over 544 forest 
product jobs. We've lost 144 retail and support jobs, and $40 
million of local payroll. Today my company employs eight less 
people, and my gross receipts have declined by $1.5 million. As 
I look to the future, I am extremely concerned about supporting 
my family and the fam-

ilies of the 30 remaining employees in my stores. Access to 
natural resources is vital to southeast Alaskans and is 
actually guaranteed by the Alaska Statehood Act.
    Environmental groups have stated that tourism can and will 
replace lost forest products jobs. Madam Chairman, this is 
simply not true. Tourism is important to our local economy and 
throughout the State. I have supported and will continue to 
support this growing industry; however, it is a seasonal--it's 
a seasonal industry, and it only provides seasonal jobs. It 
does not provide families with the benefits of year-round 
employment. These jobs also will not replace the 25 percent 
return to our communities for education and transportation 
based on timber receipts.
    Madam Chairman, it has become obvious to many that 
increased funding by national tax-free environmental 
foundations to the local environmental groups leads to 
decreased economic activity and local employment. The 
environmental industry states that they support a value-added 
timber industry for southeast Alaska. Madam Chairman, my 
community and I are confused, because these same small groups 
continue to object to harvest quantities adequate enough to 
sustain even a small value-added forest products industry.
    The Forest Service has a legal mandate to manage our 
national forests for multiple uses, which include timber 
production. The new land management for the Tongass 
dramatically reduced the amount of land available for a long-
term sustainable timber industry in southeast Alaska. Even with 
this massive reduction of the available sale quantity on the 
Tongass, the environmental industry continues to fight timber 
production. This is not acceptable. At a minimum, we need to 
sustain our current economy. Legal challenges orchestrated and 
financed by the national environmental lobby continues to block 
multiple uses on the TTRA, and this is preventing our ability 
to maintain a stable economy.
    Madam Chairman, I believe it's time to make these tax-
exempt foundations that fund the environmental industry 
accountable. As a businessman, if I were to provide money to 
someone which they in turn used to destroy another business, I 
would be held accountable, and it would be illegal under RICO 
laws. Madam Chairman and members of the subcommittee, for the 
sake of my family and the families of my community, I urge you 
to hold these foundations accountable.
    And I have a couple other items I'd like to have entered 
into the record. I have a list of the foundation grants that 
have gone into Alaska. And I have a copy of an article in the 
October 19th, 1997 Boston Globe--it came off of their Web page, 
and some interesting quotes in there, and I won't read them 
all, I will just read a couple: ``If a foundation had a large 
interest in Alaska and a lot of money, you definitely had a 
large interest in Alaska,'' and that was stated by a former 
Wilderness Society director.
    Here's a statement about the gentleman that works for the 
Pew Charitable Trust: In Alaska, environmentalists credit 
Joshua Reichert with devising the national strategy to help 
bring an end to two subsidized contracts on the national 
forest.
    So I would like to have these entered into the record.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Conley. Thank you. And I also have a copy of a full-
page ad from the Alaska Rain Forest Coalition asking for the 
President of the United States to end logging on the Tongass. 
And I can provide a copy of this. This is kind of a one-of-a-
kind of an original. And the Alaska Rain Forest Coalition was 
funded by the Pew Charitable Trusts.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Conley. And if you can get a 
copy of that, would you like to have it entered in the record?
    Mr. Conley. I would, ma'am.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Conley. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Conley.
    [The prepared statement of Mr. Conley may be found at end 
of hearing.]
    Mrs. Chenoweth. And the Chair now recognizes Mr. Favreau.

STATEMENT OF LEON FAVREAU, PRESIDENT, MULTIPLE USE ASSOCIATION, 
                    SHELBURNE, NEW HAMPSHIRE

    Mr. Favreau. Thank you, Madam Chairman, for allowing me to 
express my views on the impact Federal land use policies could 
have on a rural community like mine. My name is Leon Favreau, 
and I am president and cofounder of the Multiple Use 
Association. Our 500-member group is based in Shelburne, New 
Hampshire, and has been in existence since 1987. Most of our 
efforts go toward exposing the public to the truth about our 
Nation's forests.
    You will soon see the results of some of our work when you 
receive an Evergreen Magazine issue on the Northern Forest 
Lands. We helped raise the funds needed for the production 
costs for the issue that will show the Northern Forest Lands as 
they are.
    I am president of Bethel Furniture Stock, Inc., a primary 
and secondary wood products manufacturing firm that produces 
component parts for the furniture industry. The last title I 
will share with you is that of chairman of the budget committee 
for the small town of Shelburne, New Hampshire.
    The concerns that I would like to express today have to do 
with H.R. 971, the Northern Forest Stewardship Act. As you may 
know, the so-called Northern Forest Lands are comprised of 26 
million acres of primarily private forest lands that span 
across the State boundaries of northern Maine, New Hampshire, 
Vermont and eastern New York. The Stewardship Act purports to 
prevent harm from coming to these lands and its resident one 
million people.
    The Multiple Use Association supported the study performed 
by the Northern Forest Lands Council that tried to determine 
what constituted a threat to the local forest. The report may 
have broken new ground by showing so much concern for local 
people.
    The Stewardship Act, however, is different. We believe it 
will lead to greater Federal control over our local 
communities. The council made it very clear they did not 
recommend increased control. While local communities 
participated in the Northern Forest Land study, they haven't 
participated in the preparation of this legislation. Local 
hearings are necessary to correct that.
    I know that you have heard from some in the timber industry 
that support the Act. I'm here to tell you that most of us in 
the local timber industry are against it. We understand that 
this is just another step down a slippery slope that will mean 
it will be even more difficult for us to do business in the 
Northern Forest Lands area. Increasing the focus on government 
land and easement acquisition, which the Act does, will mean a 
reduction in the availability of timber.
    Since the Northern Forest Land Council's report found that 
our varied forests really weren't threatened, one needs to ask 
why all of this national interest in our 26 million acres? 
There was never any local groundswell to put more Federal or 
State controls on these private lands, nor was there any local 
groundswell for more government land purchases. Instead, this 
drive to change local land use comes from a vision concocted 
for us by our elite from the national environmental and 
charitable foundation communities. They initially promoted as 
examples to be copied for our area, controlled greenline areas, 
such as the Federal Columbia River Gorge scenic area and the 
New York State Adirondack Park.
    The term ``greenline'' has now been discredited in the 
Northern Forest Lands area, partially because we brought out a 
mayor from the Columbia River Gorge who gave a devastating 
description of what it was like living and working at home in 
his elite-controlled area. Greens no longer mention the term 
``greenline,'' but there is no doubt in my mind that it is 
still their goal for those of us who live and work in the 
Northern Forest Lands area.
    H.R. 971, I believe, will do nothing to help our rural 
communities. Almost everything in the Act is already occurring 
at some level. If the Act is passed, the local citizen's fight 
to maintain his or her land use rights and way of life will be 
raised to a higher and more difficult level. Senator Leahy 
isn't helping his constituents who live in Vermont's Northern 
Forest Lands area when he continually tries to attach the 
Senate Act to other pieces of the Senate's legislation.
    I ask you to think of people like me when you consider 
whether to pass on H.R. 971. Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. Favreau, very 
interesting. We're hearing another side of the story today.
    [The prepared statement of Mr. Favreau may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair recognizes Mr. Edmund Gomez from 
New Mexico.
    Mr. Gomez?

STATEMENT OF EDMUND GOMEZ, NATIONAL COMMISSION ON SMALL FARMS, 
                      ALCALDE, NEW MEXICO

    Mr. Gomez. Madam Chairman, members of the Committee, my 
name is Edmund Gomez, and I live in Alcalde, New Mexico. I 
speak on behalf of my neighbors, friends and family who rely 
heavily on public lands for economic, cultural, social and 
spiritual survival. As an active member of the USDA National 
Commission on Small Farms, which was commissioned by Mr. Dan 
Glickman, USDA Secretary of Agriculture in July 1997, I also 
speak on behalf of small farmers and ranchers from rural 
communities across the country who rely on public lands for 
economic survival.
    Communal land use by residents of New Mexico and the 
Southwest has historical roots dating back to 1598. During 
Spanish colonial settlement, community land grants were granted 
by Spain and later Mexico to groups of settlers and Native 
American pueblos in New Mexico and in the Southwest. Many of 
these tracts of land are currently held as public lands by the 
USDA Forest Service and the Bureau of Land Management. The 
descendents of the Spanish and Mexican land grants have 
continually utilized these lands for livestock grazing, fuel 
wood, hunting and timber harvesting, as well as a source of 
watershed for domestic livestock and agricultural use.
    New Mexico ranks 49th in per capita income. The northern 
counties of New Mexico are some of the poorest in respect to 
per capita income in the country. Over 50 percent of the land 
base in New Mexico is owned by the Federal Government. Many of 
the residents of northern New Mexico, including the Native 
American Pueblos, own very small parcels of land. Some 
sociologists attribute the correlation of poverty to the 
proportion of private versus public land ownership. Many of 
these public lands were once owned by the ancestors of these 
rural communities.
    Livestock production represents over 85 percent of all 
agricultural income in northern New Mexico. The average 
livestock producer in northern New Mexico owns 20 head of 
cattle and utilizes public lands. Within the past 50 years, 
from 30 to 60 percent of the traditional savanna grasslands in 
the Carson and Santa Fe National Forests have been lost to 
woody shrub and tree encroachment due almost entirely to fire 
suppression, thus causing loss of livestock and wildlife 
habitat and economic stability within rural communities.
    Some groups who desire to eliminate livestock grazing from 
public lands claim that ranchers are becoming rich off of the 
public lands. I have yet to meet a wealthy indigenous rancher 
from northern New Mexico, and I have lived there all of my 
life. Many of the residents of northern New Mexico, including 
Indian Pueblos, rely on public lands for fuel wood and timber 
harvesting as did their ancestors. A large percentage of these 
residents utilize fuel wood as their only source of heat and 
cooking fuel.
    In 1994, a special interest group filed a litigation based 
on the Endangered Species Act with the USDA Forest Service on 
behalf of the Mexican spotted owl in the Carson National 
Forest. In 1996, a Federal court restricted all harvest of 
timber and fuel woods in the Carson National Forest until the 
forest complied with the Endangered Species Act. This action 
prevented local residents from obtaining fuel wood for heating 
and cooking. Many families endured a very cold winter that year 
because of this inhumane action. Incidentally, the Mexican 
spotted owl has never been historically documented as living 
within the Carson National Forest.
    Why do indigenous people continue to live in northern New 
Mexico rural communities? The indigenous people of northern New 
Mexico speak seven languages, including English. They have 
retained their culture, tradition, social values and 
spirituality. They were the first and continue to be the true 
environmentalists of the land, utilizing the sustainable 
practices that have fed and clothed their children for many 
generations, always returning more than they take.
    The pristine beauty of the land remains intact and attracts 
new waves of settlers every year. Rural communities in northern 
New Mexico work and live as a family. This social and culture 
custom has given support during adverse situations and has 
allowed them to raise their children with the same values that 
have been sacred to the people for many generations.
    Congress has passed legislation dealing with public land 
policy and environmental issues that were deemed necessary and 
essential, but a one-size-fits-all policy does not work for all 
public land situations. Congress has overlooked the endangered 
rural communities and their struggle for survival and a 
traditional way of life. We are just as important as the other 
endangered species Congress is protecting.
    Rural communities were excluded when Congress developed 
policy that would ultimately affect their lives. Madam 
Chairman, and members of the Subcommittee, please find ways of 
amending the Clean Water Act and the Endangered Species Act so 
that they will provide for the protection of the environment as 
they were intended, and not to be used as a loophole for 
special interest groups who continue to file litigation against 
the USDA Forest Service in an effort to promote their own 
agenda. Provide congressional provisions to establish local 
community-based public land management boards which will 
determine the management objectives for the local public land 
base and would include both environmental and economic 
considerations. This process will ensure that rural communities 
who traditionally rely on the land for survival will be 
included in the policy decision process for their region.
    And finally, Madam Chairman, and members of the 
Subcommittee, I extend an invitation for you to visit with us 
in northern New Mexico so that you may firsthand meet real 
people who have utilized public lands for over 400 years, who 
depend on these lands for survival, and the real people who 
have retained their culture and spirituality because of their 
harmony with the land. But please, please, accept my invitation 
before the rural communities of northern New Mexico become 
extinct.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Gomez, very interesting.
    [The prepared statement of Mr. Gomez may be found at end of 
hearing.]
    Mrs. Chenoweth. And the chair recognizes Mr. Hugh McKeen 
from New Mexico.
    Mr. McKeen?

    STATEMENT OF HUGH B. McKEEN, NEW MEXICO CATTLE GROWERS 
               ASSOCIATION, GLENWOOD, NEW MEXICO

    Mr. McKeen. Madam Chairman and Committee members, it gives 
me great pride to speak here today, although I have a heavy 
heart because of what's going on back home.
    I want to read first of all, what it says in a forest 
publication here: the Forest Service administered its 
nationwide program of range resource management with the 
following major objectives, and I'm going to read the one 
that's pertinent to what we're talking about here, to promote 
the stability of family ranchers and farms in local areas where 
national forest and national grasslands are located.
    We're doing the opposite here, Madam Chairman. I have three 
brothers. One brother served in Vietnam. Another brother was 
going to Vietnam, he was in the paratroopers, but he didn't go. 
I served my military also and my time in the Berlin crisis. We 
pay our taxes, we served our country with honor and sense of 
duty. Now our country is betraying us through the Federal 
bureaucracy, namely the Forest Service in our area.
    I want to recount to you an individual thing that happened 
to me. In 1995, I filled out my 10-year renewal for my grazing 
permit. They brought it to me, and I said I couldn't live with 
it. They instituted standards and guidelines I couldn't live 
with. They gave me the word again that they had no studies and 
so I said I couldn't live with it. They went back, they wrote a 
letter to FMHA, who holds the mortgage on my home, my farm. I 
didn't have to sign this 10-year renewal until March 31st. They 
wrote the letter on March 12th.
    FMHA wrote a letter and said, we're going to foreclose 
because you haven't signed the grazing permit, and it's part of 
the collateral. They get other agencies to help them. They get 
two Federal agencies. That's the way they work. So, on March 
the 31st, I had to sign my grazing permit under the conditions 
they gave me. I either have a slow death or a fast death.
    OK. The other thing I want to talk about is the--and the 
other thing that happened was that when I called up FHA and 
said, hey, you know, I've signed my permit, FHA says, well, the 
Forest Service has to tell us. I had to beg them three times to 
write a letter to FHA telling them that I had signed my permit.
    The other thing that happened to us just here recently, we 
had a hearing in Tucson. Several environmental groups sued the 
Forest Service to have cattle removed on 32 different 
allotments in Arizona and New Mexico. We were told by the 
Forest Service before we went to the meeting that the Forest 
Service was representing the cattle people. They were going to 
look after our water rights, the grazing rights, and our 
economic rights, and all the things they're supposed to do, our 
families.
    We got down to the Tucson hearing. It was a friendly suit. 
The Forest Service was there with the environmental groups to 
totally destroy us. We had witnesses there, we had our 
attorneys there, and as the hearing progressed after the 
environmentalists and Forest Service has presented their cases, 
it went before the judge, and the judge says, there's not going 
to be an injunction, there's not going to be any cattle 
removed.
    The Forest Service could see that they're losing the case. 
The environmentalists put on one of the poorest cases you could 
imagine. In one case they had one fellow who was a high school 
graduate, said he had been out on the permits and had actual 
accounts. He had been out there two days, something like 6 
million acres. Another one was out there six days. This was the 
extent of their testimony as to actually seeing things, except 
for another expert.
    As this thing progressed, the Forest Service could see they 
were going to lose the case, so they said, Your Honor, we want 
to go out and settle this thing out of court. So they went out, 
they excluded the cattle people, came back with a stipulated 
agreement, and the judge said, I'm not going to sign it.
    Well, that excluded us from our testimony after we paid our 
people, after we didn't even get our day in court. So we went 
home, and what did the Forest Service do? They came home and 
began to remove livestock. The Forest Service came home and did 
everything--did the things they were told not to do in this 
court. So we have people right now at home having cattle 
removed by intimidation. They sent me a letter and said I can't 
use my private land because it has a little piece of forest 
land in it. It means I have to fence that forest land before I 
can use my pasture again. For somebody with a big long river, 
it's disastrous, and that's what's happening. So rather than 
proceed as other people have, they're just removing their 
cattle.
    So, Madam Chairman, we're in terrible shape. The Forest 
Service is totally a dictatorial thing that's come over us. 
They joined hands with the environmental groups, and we're down 
to the last straw. We need help from somewhere. Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. McKeen, for your 
testimony.
    [The prepared statement of Mr. McKeen may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair recognizes Mr. John Peterson, the 
gentleman from Pennsylvania, for questions.
    Mr. Peterson. I'd like to commend the Chairman and the 
Committee for holding this hearing. For a little background, I 
come from the East, but I come from the west of the East I call 
it. I represent the northern tier of Pennsylvania, where we 
have the finest hardwood forests in America. And we have the 
Allegheny National Forest, which is currently under siege by 
the environmental groups to stop logging there. In the northern 
tier of Pennsylvania, we used to dig coal, we used to drill for 
oil, and we used to cut timber. That was very much a part of 
our quality of life, and all of those have been under attack.
    The northern tier of Pennsylvania is more predominantly 
owned by the State than it is by the Federal Government. I have 
many counties that are 62 percent public land, 55 percent 
public land, 50 percent public land. And I think that when you 
have at least half of your land owned by government, you have a 
huge impact when government policies are made and when 
government policies are made that are given little thought that 
it's going to have a big impact.
    And I personally believe that rural America is really under 
attack. I mean, the resources that made this country strong and 
rich came from rural America. And I don't know what the long-
term plans of these groups are, but I guess it's to be 
dependent on imports for all of our resources.
    I guess the one that's the most surprising to me is the 
timber issue, because with good management, our great 
grandchildren can be marketing timber the same as we are. It's 
a renewable resource, and it's one that you're leaning on, I'm 
leaning on.
    We use it every day as we build our homes and furnish them, 
forest products, as we use paper, as we use many of our 
commodities. They're all derived from the forest products. I 
guess somehow we have to look at this as a war against rural 
America, and the quality of life there where critters and 
creatures and insects have a higher value than our children, 
who would like to live there and continue the quality of life 
that we've had in rural America.
    So would any one of you would like to respond to that 
question of how we collectively, I guess, educate the world of 
what's really happening? I don't think most of America knows 
what's happening to rural America.
    Mr. Arnold. Congressman Peterson, my name is Ron Arnold, 
one of the items that I think that every State can do, such as 
yours, is to do the fundamental research into who really is 
behind this attack, as we have done. Our center stands ready to 
provide basic information, training and research techniques, 
community organizing even. We will go where the problem is. And 
I'm sure that everybody on this panel has information that 
would help you do that kind of thing and give it to the media 
first in your local areas, then the national media.
    We have to make these local issues, national issues, to get 
any kind of a groundswell of public fairness. It's just plain a 
matter of appealing to the sense of fairness to Americans. And 
I think we're famous for that. Once they know, I think they 
will make the right decision.
    Mr. Peterson. I agree with you. I was a State legislator 
for 19 years, and I learned early on that if I held a news 
conference on rural issues, I would get three or four press 
there. If I held a news conference that was not looked at as a 
rural issue, I'd get 15 or 20 press there from the press corps 
in Harrisburg, which was the State government.
    So we used to try to figure out ways of couching that we 
were having a rural issue, and I don't understand that. I 
mean--but that was the bias. You'd get three or four press to 
come to a news conference that dealt with rural issues, and yet 
most of America wants to enjoy rural America, but for some 
reason they don't want people who live in rural America to have 
a quality of life that they will even be there.
    Now we also have to, I think, work from the understanding 
that some of these groups, not all of them, but some of these 
groups, want half of America to be as natural as it was when 
Columbus came, and they want people there; they certainly don't 
want vehicles there. They don't want anything there except 
critters. Now that's a philosophy I guess I just don't happen 
to agree with. But that is the baseline of some groups, and 
somehow we have to think in that perspective, too, that they 
want the land for the critters, not for people.
    Yes, sir?
    Mr. Favreau. Can I make a comment? Being from the timber 
industry, I really appreciate your comments. You asked what you 
could do in your area to try to educate the public. I'm really 
high on the Evergreen Magazine and the Evergreen Foundation. 
Their sole reason for being is to restore the public confidence 
in forestry, and they're very highly credible, and I think 
raising a little bit of money to get an issue on your area 
would be a big plus.
    The other thing I'd like to comment--comment I'd like to 
make is about the industry. I think that, you know, I've got--I 
belong to industry associations, and, you know, there are a lot 
of dear friends in the industry, and I think the industry still 
hasn't figured out what's going on and isn't doing what it 
could to try to save itself. We're dealing with some people 
that are really determined.
    Let me give you just one little example. At one of the 
Northern Forest Lands hearings I had a discussion with one of 
the activists who is trying to control everything. And I was 
trying to make a point, and I said, you know, we don't accept 
disease in our bodies, we don't accept disease in our pets, we 
don't accept disease in our gardens, but we're going to accept 
disease in our forests. And that didn't go anywhere, because he 
told me that he felt disease in people was good because there 
are too many of us.
    He did say he preferred it wasn't in his own body. But 
anyway, this tells you what the mentality is, and we're never 
going to change that. What we need to do is expose it.
    Mr. Peterson. I would be interested if any of you that 
have--because the East is now just being impacted like the West 
was, and--you know, in the Allegheny National Forest, because 
it's a very mature hardwood forest. We had many people that 
felt it wouldn't happen to us, and it is now happening to us.
    And I want to thank all of you for coming out today and 
sharing with us, because it's a battle that we really cannot 
afford to lose.
    Mrs. Chenoweth. Thank you, Mr. Peterson.
    And we will have a second round if you would like that. The 
Chair recognizes the gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you, Madam Chairman. I appreciate the 
fact that you've taken the time to hold this hearing today. And 
I want to welcome all of our panelists here before us. And I 
know many of you have traveled far and gone to great lengths to 
appear here today, and I want to say that we appreciate your 
interest, as well as your commitment and your contribution as 
well to all of this.
    I guess my first question is--is to Mr. Arnold. I know you 
talked a little bit and you explained a little bit about grant-
driven Federal employees. Could you elaborate a little more, 
maybe give us an example of what you mean by that?
    Mr. Arnold. Yes, Congressman, I would be happy to do that. 
As a matter of fact, if you take a look within the Battered 
Community report, we actually have a fair profile of a number 
of them, page 14, 15, and 16. One of them is the Forest Service 
Employees for Environmental Ethics. It's--it advertises itself 
as consisting of present, former and retired Forest Service 
employees, and it says that it works to create a responsible 
value system for the Forest Service based on land ethic and so 
on.
    But if we take a look at the chart that I've provided of 
where the money came from that got them started, it's not clear 
who had the idea to start them even, whether it was Andy Stahl, 
who is listed as the executive director, or Jeff DeBonis, who 
is the first in that position. We have--in the year they 
started and started getting money in 1990, as you can see 
clearly in the chart, $100,000 from the W. Alton Jones 
Foundation, $15,000 from the Rockefeller Family Fund, $20,000 
from the Nathan Cummings Foundation and $10,000 from the Beldon 
Fund, and there are more like that.
    But if that isn't grant-driven, and the purposes of these 
grants is stated to foster new support sustainable among U.S. 
Forest Service workers, it's difficult for me to comprehend 
what does ``grant-driven'' mean.
    Mr. Gibbons. It's your impression that Federal dollars are 
being used to further private interest?
    Mr. Arnold. Well, it's not so much Federal dollars, even 
though many of these environmental groups do receive Federal 
grants. It's essentially a matter that tax-exempt money from 
large foundations is being used to promote organizations that 
themselves promote within the Forest Service and other 
organizations within other agencies, within the government, to 
promote agendas that stop goods production, so that appears to 
me as undue influence.
    They are on the inside. We can't reach them. They were not 
elected. They are not accountable. There are no regulations 
that control them. What's wrong with this picture is the first 
question that pops into my mind about that.
    Mr. Gibbons. Thank you.
    Mr. Conley, have you run across private foundations in 
Alaska that have funded environmental groups which are contrary 
to the best interests of your constituency?
    Mr. Conley. Congressman, yes, I have. In southeast Alaska 
we have a number of groups and we've been able to track, and 
I've included that for the record, but we've been able to track 
the foundations and the local environmental groups and the 
dollar amounts. And there's a Tongass Conservation Society. 
It's a small 14-member group in Ketchikan, and the leader of 
that group received a grant from SEACC, SEACC received a grant 
from Brainerd Foundation, and they all flow together.
    But the gentleman that runs the local environmental group 
produced a pamphlet offering his services as a person that 
could help shut down pulp mills; that he was now an expert and 
that he could help other environmental groups shut down pulp 
mills, and that was--it was real obvious that the reason that 
the tax-exempt foundation money had flowed into our area was to 
shut the two pulp mills down, and they were successful.
    Mr. Gibbons. Thank you.
    And finally, Mr. Favreau, in the balance of the little time 
that I have left, would you discuss with us how foundations and 
environmental groups outside of the New Hampshire area are 
driving the issues within your State?
    Mr. Favreau. Back in April 1971, there was a meeting that 
was held in Lincoln, New Hampshire, that was on the issue--we 
were getting a lot of interest in the Northern Forest Lands, 
and I spoke about why we didn't need outside help, and the term 
``greenlining'' was being mentioned a lot at that time. There 
was a person sitting in the audience who made an impression on 
me, and he made several comments. One of them, he called my 
thinking bunker mentality, and he also named all of the 
greenline areas. He said that he agreed with me that none of 
them worked, but he just knew that we could make it work here.
    Then he said that the environmental community had $100 
million to spend on the Northern Forest Lands. I think he said 
this to impress on me it was too big an issue for a little guy 
like me to fight.
    I didn't understand the real significance of this until I 
read Ron Arnold's book when I saw where, and in reading his 
book, that this particular person was listed as one of the 
national directors of the Environmental Grantmakers Association 
at the time.
    Mr. Gibbons. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you very much.
    You know, I think one of the most interesting things that 
I've heard from the panel, and all five of you have had 
riveting testimony, came from Mr. Conley when he said, as a 
businessman, if I were to provide money to someone which they 
in turn used to destroy another's business, that would be an 
act that could follow under the RICO statutes, you would have 
to be held accountable.
    Mr. Conley. Madam Chairman, the RICO Act is currently being 
used to prosecute the folks that have bombed the abortion 
clinics. So I think there's precedents to pursue that. And, 
unfortunately, as a small businessman and from a small area--
from a small town in a big area in the United States, as a 
legal challenge we can't afford it. I think that the Congress 
has to do it. I mean, you folks have attorneys that work by the 
years, and, you know, unfortunately we have to pay our 
attorneys by the hour.
    Mrs. Chenoweth. The only problem is, Mr. Conley, our 
attorneys do not prosecute. That's left up to the Justice 
Department. And if we were to ask Janet Reno for help in our 
resources right now, she would say, I am very preoccupied right 
now; in fact, she is.
    Mr. Conley. Maybe next year.
    Mrs. Chenoweth. I think you're onto something there, and 
it's something that I've been suggesting for a very long time. 
The Congress can put forth very good, sound laws, and we have, 
and they've been signed into law, but when we have an 
administration that continues to decide to disobey the law, and 
we do not have a Justice Department that will pursue justice in 
this case, it's up to either the individuals who are damaged to 
bring a lawsuit or up to us to expose it to the American 
public, which we will do.
    And we will continue on this Committee to work in an 
exhaustive manner, which we have been, to expose what this 
administration is doing to our rural communities. But I thank 
you for putting that in your testimony, because I think it's 
the key that will unlock a lot of the problems that we are 
involved with today.
    A very interesting Supreme Court decision that was rendered 
several years ago, but it's never been overturned in whole or 
in part, entitled Bivens v. Six Unknown Agents, of course, the 
Supreme Court ruled that when any agent steps--of the Federal 
Government steps outside the protection, the direct protection, 
of statutory authority, they are personally liable for the 
damage. That isn't often talked about. It's more to the benefit 
of the administration to ignore it. But it's to our benefit, 
and I don't think you and I should ignore it.
    So we will do whatever it takes to bring life back to our 
rural communities and life back to our resources. And I thank 
you very much for making that point.
    I do want to ask, Mr. Gomez, are the private foundations--
well, has there been any resolution of the firewood collection 
issue?
    Mr. Gomez. Madam Chairman, a few months after this story 
hit the news media, the same group, the Forest Guardians, 
purchased three or four truckloads of firewood for these two or 
three small communities that were outraged by this action. And 
ironically, they purchased the firewood from the Jicarilla 
Apache Reservation, where they had found--they hadn't seen it, 
but they thought that they had heard a Mexican spotted owl.
    It continues to persist. One issue is overcome, another 
issue comes about. I spoke with the--with the Forest Service 
about a week ago, and they have told me that 36 cases have been 
presented to district III or region III of the Forest Service 
in the Southwest within the last 10 years. Ten percent of the 
total budget for region III is spent in litigation. It's not 
grazing; now it's water quality.
    Just in last week's Santa Fe New Mexican, these groups are 
starting to ask why is the water quality diminishing? In most 
of the tributaries along the New Mexico-Colorado border, there 
is no money, there is just livestock grazing and wildlife 
habitat. The farmers in northern New Mexico do not use 
fertilizers because they cannot afford them. They're very, very 
small farms. But now they're threatening the livelihood of the 
people with the Clean Water Act. It just goes on and on and on.
    Mrs. Chenoweth. You testified that the average rancher 
there owns 20 cows?
    Mr. Gomez. Yes, ma'am.
    Mrs. Chenoweth. Mr. McKeen, are the private foundations 
funding--the private foundations that have been mentioned 
earlier, are those foundations funding the activities that are 
reducing grazing in Catron County; do you know?
    Mr. McKeen. I know there's all kinds of foundations that's 
providing funds, and I know there's government grants that 
provide funds. The Pew Charitable Trusts, I think, put in 
something like $700,000 into these groups, and I'm not that 
familiar with that.
    Mrs. Chenoweth. I see.
    Mr. Arnold, have you done a study, or do you have 
information available to us or to anyone with regards--as to 
who funds the grantmakers?
    Mr. Arnold. Madam Chairman, we have done an extensive 
amount of work on a data base that tries to compile who are the 
Environmental Grantmakers Association. It's actually not 
incorporated, or at least it wasn't to the last of our 
knowledge. It operates as an informal group with a rotating 
board of member executives out of the New York city offices of 
the Rockefeller Family Fund, and that's run by Donald K. Ross. 
It has a small staff, and it simply holds meetings and promotes 
interchanges among people in the grantmaking foundations.
    Environmental Grantmakers has over 190 members now. We have 
found that most of the trouble that we're talking about comes 
from a core cluster of these foundations. Many of them are not 
only innocent of acts that we're talking about, they don't even 
know they're going on. They're just members that think they're 
doing some good things for the environment, and that's fine 
with us, we don't have any problem. But where they're targeted 
ones, we have tried to track those, and, indeed, we do have a 
data base, which I would be happy to make available to this 
Committee.
    Mrs. Chenoweth. Thank you, Mr. Arnold. I have gone over my 
time, and I thank the Committee for their indulgence. I do have 
to go manage a bill on the floor, a bill that has just come up 
that's one of my bills out of this Committee. So I'm going to 
do that chore, and Mr. John Peterson from Pennsylvania will 
take over the Committee, and then I'll come back as quickly as 
I can.
    He may want to do another round of questioning, but I do 
want to ask Mr. McKeen just one final question while I'm here.
    Mr. McKeen, have you asked--have you done a freedom of 
information request on your file with--from Farmers Home, as 
well as the Forest Service?
    Mr. McKeen. No, I haven't.
    Mrs. Chenoweth. It might be a wise thing to do to see if 
there has been any communication between Farmers Home and the 
Forest Service.
    Mr. McKeen. I have copies of letters where they did 
communicate, yes.
    Mrs. Chenoweth. You need--I would suggest that you do a 
FOIA request and get your file and review it, OK?
    Mr. McKeen. I know my experience with the Forest Service, 
with your FOIA requests, sometimes they just don't do it.
    Mrs. Chenoweth. If you have any trouble at all, you let us 
know here on the Committee, and we will subpoena information 
for you.
    Mr. McKeen. Thank you.
    Mrs. Chenoweth. But it's really better if the individual, 
or also working with your cattle association.
    Now, you were a commissioner in Catron County?
    Mrs. McKeen. Yes, I was, for 6 years.
    Mrs. Chenoweth. I think you have some attorneys down there 
who are awfully good at making these requests. But I would 
suggest you do that right away. OK?
    Mr. McKeen. Thank you.
    Mrs. Chenoweth. I thank you all, gentlemen, very much for 
your testimony. I only wish that your time and ours, too, 
allowed for us to hear from you more, but you have certainly 
motivated me even further. And so I'm going to leave now and 
turn the Committee over to Mr. Peterson.
    Thank you very much.
    Mr. Peterson. [presiding] I'll try not to get that 
motivated that I have to leave--I'm just kidding. The Chairman 
is to be complimented on this hearing, and, Congressman 
Gibbons, I think you had some more questions.
    Mr. Gibbons. Thank you, Mr. Chairman, I appreciate the 
recognition here.
    I want to go back to perhaps finish my questioning and turn 
it to Mr. McKeen, as a person who comes from a State with a 
great deal of grazing, that would be Nevada, as well. We've had 
a number of problems dealing with our condition of the forest 
or the grazing areas within our forest. They're normally under 
grazing permits.
    I would like for you to perhaps describe for us the 
condition of the forest in your areas there in New Mexico, if 
you would for us, Mr. McKeen.
    Mr. McKeen. OK. I'm going to give you a story here that 
really bothers me. As a kid I grew up on Mineral Creek. I was 
born in Mineral Creek, and we still have some property there, 
and I live within 3 miles of it. As a kid, I fished for trout 
in Mineral Creek. My grandfather farmed on Mineral Creek, and 
other people farmed on Mineral Creek. There was over 200 acres 
of farmland on this one creek, which is a tributary to the San 
Francisco River, which is a tributary to the Hilo River.
    You go there today--and my grandfather raised alfalfa, by 
the way, which was a year-round crop, takes water year round, 
takes a lot of water, and the other farmers were there. Over 
200 acres, you go there today you can't raise one sprig of 
alfalfa because our national forest, where this water 
originates, that stream is totally gone. The only water we get 
out of this stream is it comes down through the then farming 
area, it gives you a snow runoff. We get the floods.
    But that area--and you go back, say, 30 years ago when the 
then forest supervisor said he wanted to save that area as a 
pristine area, not log it, not let it burn, because they wanted 
to build a road up through there. They wanted it to be real 
scenic. Well, it's not too scenic to me when trees take over 
meadows, trees take over all of your grasslands. Trees are 80 
to a thousand trees per acre, when they should be 80 trees per 
acre.
    And what happens is when you get that many trees, it's like 
a study, and the only study I can find to compare it to is one 
in Texas, where they were studying the ground cover. And when 
you get a 60 percent ground cover--and in this study, no water 
goes into the underground source. But that's in Texas where 
they get more rain that we do in New Mexico.
    In New Mexico I have to guess, because I asked the Forest 
Service if they had any research or anybody had any research on 
it. They don't have any, or they don't want to give it to me. I 
imagine when we get a 30 or 40 percent canopy, no water goes 
under the underground source. Consequently, Mineral Creek is an 
example of all of the streams in the Hilo Natural Forest in the 
Hilo Wilderness, wherever you go.
    I farm on the San Francisco River, and it's gradually going 
dry because of the type of management we have right now. And 
now they're wanting to do more preservation. They're wanting to 
do more saving of land and not log and not thin the forest, not 
have fires, controlling burn. So Mineral Creek is an example of 
a stream that just died.
    And, of course, what happens to the people that lived on 
the stream? Their economy went away, because they can't raise 
the crops they used to. Most of them are gone. Those lands are 
just idle now.
    And the only reason I'm farming today on my farm--I have 80 
acres of farmland on the San Francisco River, and the only 
reason I'm farming is I put a scenic ditch in, and I'm running 
out of water every year a little more, a little more, a little 
more, and the only reason I'm still farming is because the 
farmers upstream are gradually running out of water, and they 
quit farming, and then there's a little more water coming down 
to me. And that's the condition of almost all of our forests in 
the Southwest. Our water is going away.
    Mr. Gibbons. So what you're telling the Committee, if I can 
summarize it, is that poor management of our forest area, 
failure to properly address thinning and improper forest 
management has yielded an excess number of trees, which 
literally sap the water that would normally be there for the 
few remaining trees and runoff for farmers down below based on 
the amount of water each tree requires for proper growth, and 
this management has been--or poor management has been the 
ultimate result in the economic downturn in communities and 
farms in your area; is that what you're saying?
    Mr. McKeen. Yes. And I'll give you an example--this is my 
thing to do. I tell you, I've tried and tried and tried to 
improve my forest permit and do watershed work. And one of the 
biggest problems we have in my counties is by Pinon juniper 
preservation, by golly, they turn me down every time I want to 
do something. The environmentalists come out there and appeal 
every time we want to clear these invasive trees. They don't 
want people there, and when you try to even improve the 
watershed, they don't want watershed improvement either.
    Now, I have an example. When we went up and cleared our 
Pinon juniper trees on a portion of our place, which I pushed 
and pushed and pushed to do, we created a spring by just 
pushing a small hill, or a little mesa. We created a spring. 
And the Forest Service denied it ever since. They don't want to 
hear about it, but it's an example of what we can do.
    Now in my county where I have--I went to Congress one time. 
I went through my Congressman or delegation so I could push 
trees to improve the land, and it's like getting the weeds out 
of your garden. People love trees, but grassland is what makes 
our underground source and our wildlife and everything else. Of 
course, you've got to have trees, too. But in this instance 
when you remove Pinon juniper, you start at the headwater. We 
talk about riparian nowadays, how we are going to treat 
riparian areas. Forget it. If you don't want to start at that 
headwater where that water starts from, those riparians are 
going to continue to flood. You've got to start at those 
headwaters and stop that water and get your grass back and 
running. And when you do, and when you go and put these juniper 
trees back on your place, back on my place, you will have an 
explosion you won't believe. You will have birds. You will have 
all kinds of animals out there that weren't there before.
    The condition we have in our forest today is you go out 
through this Pinon juniper country, it's sterile. You're going 
to see a crow flying around there, a coyote walking through. 
You're not going to see anything, because those trees as they 
progress, they take over the browse first. And this is in your 
Forest Service literature that I'm getting this. There are 
studies, the trees take over the browse first, and then once 
the browse is taken out, then the grass goes next, and then you 
have no grass, and then you go nothing but trees down there.
    Mr. Gibbons. Mr. Chairman, if I may just ask one followup 
question.
    Mr. McKeen, do you think, in your opinion, that there is a 
much greater risk for damage to the existing forest due to the 
current management practice of allowing excess number of trees, 
failure to deal with the underbrush or the fuel growth 
underneath; from the current conditions, is your forest and 
your area much more at risk to fire, to disease, pestilence, 
whatever, than they have been in the past under previous 
management?
    Mr. McKeen. Oh, there's no doubt about it. There's no doubt 
about it. I mean, we have the Forest Service--I've been up in 
the Gila Wilderness several times, and I don't know why it 
doesn't get fire and all of it burn. There's tall grass, dead 
trees laying in every direction. There's standing dead trees, 
high percentage. There's infestation of parasites. The country 
that once was opened as a kid when I went up there, it opened 
big trees and grasslands, it's solid trees now. And it's a 
dying, decaying-type situation.
    Mr. Gibbons. What do foresters say in the area about this 
condition? I mean, obviously it's a recognizable, plainly 
obvious condition that needs to be addressed, and yet there 
seems to be very little coming out of those people we've 
charged with the proper management of our forest. Is this 
because of their fear of publicity gained through efforts of 
these environmental groups? What have you been told?
    Mr. McKeen. The Forest Service to me is nothing more than a 
bunch of PR people saying what they wish was out there. If you 
go into their office and you see the bookshelf there, it's got 
articles by environmentalists and environmental authors. It's 
got pictures of flies, pictures of deer, pictures of elk and 
lions and all of these things. There's not one pamphlet in 
there that somebody can pick up that gives the true nature of 
the national forest, not one. They've got lots of studies that 
shows that it's in bad shape, but you won't find one put in 
their display.
    Mr. Gibbons. Mr. Chairman, may I just have one more broad 
range of questioning?
    Mr. Peterson. Please go.
    Mr. Gibbons. I'm very disheartened by the remarks about the 
condition of the New Mexico forest. I wonder if other areas, 
for example, Alaska or New Hampshire or other forests, are 
seeing the same sort of trending conditions based on the same 
or similar types of management. Anybody?
    Mr. Arnold. In Washington State, we are seeing that in just 
about every national forest, and we have a lot of them.
    Mr. Conley. Congressman, in Alaska, we have got a lot of 
second growth, and the recognized forestry practice is 
thinning, and the forests are not being thinned at all. I mean, 
they are just absolutely choking themselves to death as they 
grow.
    Mr. Favreau. In Maine and New Hampshire, we are seeing a 
reduction in wildlife. It is the--I don't think it has been as 
bad as what it was in New Mexico, but it is getting there. It 
certainly is the--the conditions are worsening.
    Mr. Gibbons. Thank you, Mr. Chairman. I will release.
    Mr. Peterson. I will continue here a response on that 
issue.
    In Pennsylvania, of course, we have a rather mature 
hardwood forest that is very valuable. Just recently the 
lawsuits--we've had lawsuits before, but they've really 
impacted us more recently. A few months ago, two students from 
Clarion University put in a suit against what was called a 
mortality II cut, which was 17 plots that added up to about 
5,050 acres. And they were successful, because the Forest 
Service didn't do an EIS, but there were 17 small plots.
    It was kind of--when you looked at it and the way it was 
sold, it looked like one large cut, but it was not. It was 59 
percent dead trees, salvaged, and the rest was green. But they 
used the assistance of two law professors from the University 
of Pittsburgh pro bono, so they didn't have any investment and 
were successful at setting aside that sale--there are some 
other small sales that were advertised recently, and they have 
also put lawsuits against--in all of those.
    But we're just getting into the lawsuit phase where I think 
most of the West has been through it for years, but it's just 
now reaching us.
    The point I would like to ask you is a little bit of 
followup of Jim's. The Federal Government has 700 million acres 
and are buying, and then we have in Pennsylvania--we have I 
think it's 4 or 5 million acres of public land owned by the 
State and local governments, too. It seems to me that we need 
to have a discussion of whether the Federal Government under 
one blanket policy can manage land in Alaska, New Mexico, New 
England, Pennsylvania, and all over this country where there is 
no similarity to the forest. Even the western forest is more 
similar, but there certainly is probably very little similarity 
to New Mexico than Washington or Idaho or Alaska, and yet 
you're using the same policy from the Federal Government.
    And I guess the disheartening part now is--and I've not 
been here a long time, but, as an observer, it seems like for 
the first time we have the Vice President and Katie McGinty 
really running--adjunct running the Forest Service. I mean, 
it's their policies that are being utilized. They've not been 
debated by anybody. There's been no public forums nationally 
certainly to make sure those are good policies. And so we 
really have untested, untried policies to manage our forests 
and to manage our public land without a public discussion. And 
it seems somehow it ought to be regional.
    I guess the question I would like to ask is, what kind of 
support and help can we depend on from your States and local 
officials? Are your Governors with you? Are your State 
legislatures with you? Or what kind of support do you get from 
them?
    Mr. Arnold. Well, to start with Washington State, our 
Governor-at-large is unaware of the problems, and we're not 
sure he would be sympathetic were he informed in Washington 
State. But our county commissioners, particularly in the rural 
areas where we have this urban-rural prosperity gap so badly, 
most certainly are on our side. And if you take a look in the 
Battered Communities Report that I've submitted for the record, 
we have a number of statements from county commissioners.
    I think they would probably pretty widely all over the 
United States be with us, because we have them from Minnesota 
and Washington State. And I don't see any reason with a little 
further work we could not get a fairly good organization of 
support from them.
    Mr. Peterson. Anyone else?
    Mr. Conley. Congressman, in Alaska, it's unfortunate, but 
we have a Governor who aligns with the White House, and so the 
policies are real similar. We have a Governor that--we have an 
area of some State land, and it's a dead forest. It's been 
affected with the spruce spark beetle. It's a fire hazard. At 
one point, we could have gone in and cut that wood down and had 
a marketable value. It would have prevented a massive fire that 
happened a couple years ago. He absolutely gets his marching 
orders from the same place the White House does, and that's the 
Sierra club.
    Mr. Favreau. In New Hampshire, for the natural forest 
alone, we do get support from broad-based--our senators, 
Congressman and the local officials, a lot of support.
    Mr. Gomez. In northern New Mexico, we get a lot of support 
from our county commissioners and from our State legislators; 
but we don't hear anything from the Governor's office.
    Mr. McKeen. Yeah, I think that's true. The local people, 
the local county commissioner and these kind of people support 
us. And I felt we had support from our Governor, and we have 
support from our congressional delegation here in Congress 
here.
    Mr. Peterson. I'm going to conclude with this and dismiss 
this panel. And our Chairman is with us now. I will turn it 
back over to him.
    I'm not going to turn it back over to him. I will at this 
time offer a chance to ask the questions to our chairman from 
Alaska.
    Chairman Young. Mr. Chairman, may I suggest that you do an 
excellent job; and you're well versed in this subject. I hope 
you will see the day when you sit in that chair as the chairman 
of the full Committee. It will be a long while. I want you to 
know that.
    JC, the Sitka Pulp Mill, you're from Ketchikan, but is it 
my information that that mill has been closed longer and there 
were those in that town at that time that were optimistic about 
the economy because it lasted pretty well for numerous years. 
But has that optimism been justified by the results in Sitka?
    Mr. Conley. Congressman, not living there, I can't really 
quote the numbers and figures, but I do have many dear friends 
that live there and are in business. And in my conversations 
with the folks in Sitka, they feel that the economy is down 30 
to 35 percent. I know that the tonnage, the freight tonnage of 
goods is down 33 percent, and it's not good.
    And, you know, there was an anomaly after the APC closure. 
There was not really as much severance money as we got in 
Ketchikan for our workers. But there was additional funds that 
these no-longer-employed folks had that came out of some of the 
profit sharing and pension deals that they had, and they did 
have a little spike in the economy. There was also outside 
money. This influenced the real estate market there. There were 
a great number of homes that were bought from people from 
California as kind of a summer place to go, an investment. You 
know, now with the mills gone, you know, we'll go up there and 
get some cheap land, you know. And, really, I don't think it 
was a real estate boom. I think it was a carpetbagging boom.
    Chairman Young. JC, I promise--I was pleased what you had 
to say about the Governor because there's doubt in my mind that 
he does not support--in fact, he had the gall to call Jim Lyons 
to suggest to lower the cut that was recommended in the TLMP, 
which was about 128 million board feet a year. We had been 
cutting about 400 million board feet a year and to have them 
drop that amount is ridiculous.
    But I think that the chairman just mentioned that the 
support for timber industry or timber management is still an 
anomaly, because no one really understands it, other than the 
people that are actually dealing with it. And the chairman is 
absolutely right. The policy of this administration is 
socialism--to run everybody out of private business, to let the 
trees die and let the trees supposedly act as nature. And when 
we basically need the fiber, the government will develop it.
    And I really--it goes against everything I've ever thought 
of, that, as you know, I've introduced a bill to give the 
Tongass back to the State, which is, I think--I don't see any 
justification for the Federal Government owning land, other 
than the Statute of Liberty and maybe a few parks, maybe a few 
refuges, but to just own land to do nothing with I think is a 
disservice to the constitution and to the people of the United 
States.
    But it's going to take an awful lot of effort from people 
like you and from your communities to stir this up. Because, 
unfortunately, as you know, most of our population now live in 
Philadelphia--I just came from there yesterday--San Francisco, 
New York, Miami, Chicago, and, you know, LA, and they haven't 
the slightest idea where toilet paper comes from. And that 
gives us our biggest problem.
    So it's going to be up to you. Because, although I just 
know some of the people in Congress say they support you, when 
it comes right down to the votes, sometimes they're not there. 
And that's very, very concerning to me. So it's going to take a 
great deal of team effort.
    I've been in this business now 26 years, and I've watched 
the administration and interest groups, I think, destroy the 
basis of our society. And that's resources management and not 
necessarily destruction or elimination but management. And 
anybody who can tell me a dead tree is a good tree is smoking 
something. And I just don't understand it.
    But, anyway, Mr. Chairman, I don't have any other 
questions.
    Mr. Peterson. Earlier, there was some question about the 
Pew Charitable Trusts. That's a Pennsylvania foundation. That's 
funded by the resources and wealth of the Sun Oil Company. It's 
kind of a strange that they would attract forest products, but 
they have.
    I would like to thank the panel, and I appreciate your 
traveling here and sharing your good testimony with us.
    The next panel we introduce is Mr. Donald Wesson, Southern 
Pine Regional director, Pulp and Paperworker's Resource 
Council; Honorable Mike Propes, Polk County Commissioner, 
Dallas, Oregon; and Mr. Jack Richardson, the Val Verde County 
Administrator, Del Rio, Texas.
    If you would please take your seats at the table.

STATEMENT OF DONALD R. WESSON, SOUTHERN PINE REGIONAL DIRECTOR, 
   PULP AND PAPERWORKER'S RESOURCE COUNCIL, McGEHEE, ARKANSAS

    Mr. Peterson. Mr. Wesson, if you would like to proceed.
    Mr. Wesson. Mr. Chairman, I want on thank you and the 
Committee for holding this very important hearing and for 
allowing me to participate.
    My name is Don Wesson. I am the Vice President of United 
Paperwork Workers International Union, Local 1533, located in 
McGehee, Arkansas. I serve as the Southern Pine Regional 
Director of the Pulp and Paperworker's Resource Council. I'm 
currently employed in the pulp and paper industry as an 
industrial mechanic. I reside in Desha County, Arkansas; and 
I'm a constituent of the 4th Congressional District.
    A few years ago, I was like most all Americans. I went to 
work, paid my share of taxes, voted in most elections and 
depended on my elected officials to take care of me. I've 
always felt my freedoms as well as my property was protected. 
After all, America was founded under the Constitution.
    One day, I heard some disturbing news of how a Spotted Owl 
put thousands of my union brothers and sisters out of a job in 
the very industry in which I am employed. I started paying more 
attention to what my government was doing and realized some of 
those elected officials in which I placed my trust was not 
looking out for my well-being or the well-being of America. It 
was then that I realized that the world is run by those who 
show up, and I would start showing up.
    I got involved with the PPRC. The Pulp and Paperworker's 
Resource Council is a grassroots coalition consisting of labor 
workers who work in the pulp, paper and wood products 
industries of America. We have lost thousands of jobs in our 
industry in the past few years due to various government 
regulations.
    I am here today to address the American Heritage Rivers. We 
feel this is just another governmental program that will end up 
hurting our communities and cost us more industry jobs.
    I live in Desha County, Arkansas, which borders the mighty 
Mississippi River, the life blood of America. The Mississippi 
River is among the top 10 rivers that is already nominated as 
Heritage Rivers. I have had several meetings with the Office of 
Council on Environmental Quality concerning this nomination. I 
have met with Mr. Ray Clark, associate director of the CEQ, as 
well as the chairman of American Heritage Rivers on three 
different occasions.
    Mr. Clark keeps insisting that the American Heritage Rivers 
is the greatest thing since motherhood and apple pie. He 
expressed that lies are being told about American Heritage 
Rivers. He insisted that there are no new regulations, no new 
money, and this is truly a bottom up program. It is a community 
based--it is community based, and there will be no impact on 
private property. He stated that money was already in place. 
The purpose of this program would be to just manage the rivers 
and to administer the funds where needed.
    This is why I have a grave concern over the executive 
order. If a river community is designated for this initiative, 
there are potentially serious negative implications for local 
governments. Depending on the direction the project takes, 
local land use zoning boards could be negated or completely 
bypassed. There is nothing in the language that would allow a 
designated community or individual landowners the ability to 
opt out of this program. Without the right to opt out, a 
private landowner or local government should be concerned about 
losing any power of income or development of assets, as well as 
its sovereignty.
    The idea of using a river navigator to coordinate the river 
communities efforts in itself is somewhat a disturbing idea. 
When the person selected can be a Federal or non-Federal 
employee selected jointly by the river community and Federal 
agencies, the potential for conflict of interest exist.
    Many agencies, such as the Department of Interior, Fish and 
Wildlife Service and the Army Corps of Engineers have become 
more and more active in reducing or restricting the use of our 
natural resources. If the river navigator is chosen from an 
agency that has a definite preservationist slant, the chances 
of the river communities choosing a plan to the detriment of 
private property rights and industrial development would be 
greatly increased.
    Whenever tourism, economic security, environmental 
protection and protecting/preserving our heritage are mixed 
into one initiative, the American public becomes skeptical. 
This mixture in the past has meant the decrease in high-paying 
industrial jobs. Even when there are tourism jobs created, the 
employees are not paid well and in many cases are seasonal 
jobs.
    I urge you, Mr. Chairman, and this Committee to stop the 
American Heritage Rivers Initiative. If this program is as 
great as we are told, then the office of the CEQ would not mind 
it having a congressional oversight. We do not need 16 
different governmental agencies and a river navigator to manage 
our rivers or to regulate our private lands that borders these 
rivers.
    Any proposal that is set up under the premise of 
streamlining government but yet would still include at least 
nine different Cabinet positions as well as countless other 
government agencies hardly makes this initiative more user 
friendly. Instead, it would just lead to another level of 
bureaucracy that the American public is already weary of.
    If you have any questions concerning how too many levels of 
government bureaucracy affects the jobs in resource-based 
industries, you could ask any one of the over 100,000 workers 
from the Pacific Northwest who have already lost their job over 
a Spotted Owl.
    Thank you.
    [The prepared statement of Mr. Wesson may be found at end 
of hearing.]
    Mr. Peterson. Mr. Propes?

  STATEMENT OF MIKE PROPES, POLK COUNTY COMMISSIONER, DALLAS, 
                             OREGON

    Mr. Propes. Thank you, Mr. Chairman, for this opportunity 
to address your Committee.
    I'm Mike Propes. I'm chairman of the Polk County Board of 
Commissioners, and I'm also vice president of the O & C 
Counties on the Board of Directors of the Association of Oregon 
Counties, and I'm on the Willamette Liveability Council. I'm 
also chair of two water basin boards, so I have a lot of 
experience in water basins and river protections in Oregon.
    We share some of your concerns about the Federal policies 
being developed in Washington, DC, with little input from rural 
communities that are most impacted. I offer the following 
observation, quoting from our letter dated August 19th, 1997, 
to Karen Hobbs, Council of Environmental Quality, and that 
letter is included in your packet.
    ``Looking at the American Heritage Rivers Initiative from 
the bottom up, it seems quite obvious that the initiative was 
developed without an awareness of the efforts already underway 
by regional, State and local citizens in cooperation with 
Federal Government agencies to protect our rivers. The 
preliminary meetings involving approximately 690 attendees, 
held in large metropolitan areas, seems to have been the basis 
for launching the American Heritage Rivers Initiative. This 
hardly seemed representative of over 225 million people on this 
matter, and thus seems to have been spawned from an inadequate 
understanding of the need or want of both the citizens and the 
rivers.''
    This information came out of the Federal Register of how 
this initiative started. So these are not our figures. These 
are the figures from the people that attended the meetings, 
right out of the Federal Register to start this program.
    This program is supposed to be voluntary, but it appears 
that these designations will occur in spite of strong 
opposition from local governments. This is the first promise 
broken with respect to the American Heritage Rivers. Broken 
promises seem to be a pattern with this administration with 
environmental issues.
    Four counties along the Willamette River--Lane, Linn, Polk 
and Yamhill--have asked to be excluded from the Heritage River 
Initiative. And I think this is where it's really important to 
understand what has happened locally. We have been told locally 
that it takes local people opting into this program, and if an 
area doesn't want it, you're not going to be included.
    We now have 26 counties in Oregon--and this is in one of 
your exhibits that is included in the packet--that has asked to 
opt out of this program. Out of the 36 counties, we have 27 
that have opted out. We don't have a single county that has 
asked for it.
    Well, after that had happened, we were told, well, it 
couldn't be locally opted out. It took somebody from your 
congressional delegation to opt you out. So we went to our 
congressional delegation, and one of our Congressman opted us 
out--and one of our senators. And then we were told, well, no, 
now it takes your whole congressional delegation to opt you 
out.
    Well, I think it probably takes Congress to opt us out. And 
that's what we're here to ask for, is to opt us out. And we're 
not sure if this is a good program or a bad program. We have 
read every bit of information we can get on it and we can't 
figure it out if it's good or bad.
    We do know that it's a new Federal program. Is there new 
regulations? We can't tell. Is there new moneys? Well, there 
appears to be new moneys, but are there going to be strings 
attached to that, that you have to use it a certain ways? We 
cannot tell. We do not want to be a guinea pig for another 
Federal program.
    I was back in Washington, DC, my last time, a little over 
10 years ago, and I came back here to discuss the Spotted Owl 
and the Endangered Species Act. And I had a conversation then, 
the same as I had yesterday with some staff members back here, 
about that I'm overreacting, that, no, it really isn't going to 
be the things that you are perceiving is going to happen with 
this program.
    Well, 10 years ago, we were predicting that we were going 
to have some severe cutbacks in our economy because of the 
Spotted Owl in Oregon; and people in Washington, DC, thought we 
were crazy, that can't happen, that's not what this program is. 
This is to help protect animals, and it's good for people and 
everything else. Exactly what we feared with that program 
happened, regardless of what people told us here. And that's 
the fear we have with this program.
    Real quickly I would like to just mention the exhibits that 
I have attached. I do have the resolutions from the 27 counties 
that have opted out, and I have resolutions from two of the 
cities that are on the Willamette River that have asked to opt 
out. And I have resolutions from the Oregon State Senate, from 
the Oregon Cattleman's Association, Oregon Farm Bureau, Oregon 
Logging Conference, Oregon Wheat Growers and the Yamhill 
Republican Central Committee, a very important committee.
    Also, I do have a map that is attached; and that is Exhibit 
D. That shows the counties that had opted out. That's the 24 
counties. There's an additional three counties that have opted 
out that are not on the map. And that's Deschutes, Wheeler, 
and--sorry, I can't recall the third one now--that have opted 
out.
    And you may look at the map at the very bottom of the page. 
It looks a little different. That is the United States 
stretched out just a little. We'd like to get further away from 
DC, not closer.
    Thank you.
    Mr. Peterson. I get your message, and I agree with you.
    [The prepared statement of Mr. Propes may be found at end 
of hearing.]
    Mr. Peterson. Mr. Jack Richardson, please proceed.

 STATEMENT OF JACK RICHARDSON, VAL VERDE COUNTY ADMINISTRATOR, 
                         DEL RIO, TEXAS

    Mr. Richardson. Yes. Thank you for the opportunity to 
testify before the Natural Resources Committee on the American 
Heritage Rivers Initiative and the pending application for the 
Rio Grande River.
    My name is Jack Richardson. I'm a county administrator in 
Val Verde County, Texas, which is located on the Rio Grande 
River. Val Verde County has got an estimated population of 
about 48,000. The entire county borders on the Rio Grande 
River.
    The county, while small in population, consists of 3,171 
square miles. Sixty-two square miles of that is usually water, 
but it's not now, because the International Boundary Water 
Commission pulled the plug on Lake Amistad. These facts qualify 
Val Verde County to have a true voice in any initiative that 
encompasses additional Federal regulations upon the county.
    I have lived there for more than 25 years. I know many of 
the families that have lived there and worked there for 
generations. In fact, my five grandchildren reside on a 
tributary of the Rio Grande. It's called San Felipe Creek.
    We do not need a Federal initiative to tell us how 
important the Rio Grande is and to recognize the rich culture 
and heritage that exists along the border. We honor our culture 
and heritage every day as we go to work, raise our families and 
just simply live there.
    I worked for the United States Border Patrol for 32 years. 
I guess I'm one of those suspect Federal employees. And I've 
been exposed to an awful lot of Rio Grande River culture, 
believe me. I do not claim to be an expert on the Rio Grande, 
but I've had a lifetime of experience working there, and the 
Rio Grande has played a significant role in all that work.
    I would kind of like to know how many members of this Blue 
Ribbon Panel have even seen the Rio Grande. They tell me maybe 
one. Now, I understand the Rio Grande is on a list along with 
several other rivers as a potential candidate to be named as an 
American Heritage River. Exactly what that would mean for the 
communities and the people who must live and work along the 
river is still not fully known, just like he said.
    I know the full impact will not be known until the 
initiative is being implemented; and, at that time, it's been 
our experience that it's just too late to stop it.
    The AHRI is another unfunded mandate, and we've had a bunch 
of those. We really have one which cost us about $20 million, 
anyway, of which the true cost to the local communities and the 
impacts on income, property rights, production and 
competitiveness are still unknown.
    I am here today to make sure that the concerns of all of 
those who live and work along the river are heard. We want to 
be fully understood that nonsupport for the Rio Grande 
nomination flows up and down this river. Many communities in my 
region do not want the strings that come attached to Federal 
programs. And there's always the price to pay when you say ``I 
do'' with the Feds. You know that, and I know that.
    I have with me today resolutions and letters of nonsupport 
from counties that are located along the Rio Grande within its 
watershed. One of those county resolutions is from my home 
county of Val Verde. It kind of surprised me when they did 
that, because you can't get those five people to agree on 
anything, and yet this was a unanimous resolution.
    I have letters of opposition from many agriculture 
organizations, property rights organizations. We have 77 
resolutions and letters of nonsupport for the designation of 
the Rio Grande as an American Heritage River. This represents 
thousands of Texas citizens that do not want the AHRI in Texas.
    Mr. Desmond Smith, president of the TransTexas Heritage 
Association, also will come up to testify on behalf of the 
membership that represents 15 million acres of private land in 
Texas. They didn't want the AHRI to designate the Rio Grande 
River either.
    The San Antonio Express News recently quoted our Governor 
Bush as stating, when it comes to ONRW or the American Heritage 
Rivers, whatever it is, I'm against it. Well, if you're 
Governor and he doesn't know what it is, the likelihood of us 
knowing it is pretty remote. And he said, I will not, so long 
as I'm Governor, concede the sovereign rights of Texas.
    Well, Senator Kay Bailey Hutchison of Texas and Congressman 
Henry Bonilla have both sent letters to the Council on 
Environmental Quality in opposition to the Rio Grande 
designation. Congressman Bonilla requested his congressional 
district not be included in the initiative, and seven other 
members of the Texas delegation also requested their districts 
not be included.
    There are 800 miles of Rio Grande that run through the 
Congressman's district. I'm talking about--if you can 
visualize--from El Paso up here to Laredo down here. We're way 
down here on the food chain. For some reason, CEQ ignored 
Congressman Bonilla's opt-out letter and further misrepresented 
his position by stating, in a letter to Senator Hutchison, that 
Congressman Bonilla supported a designation for the Rio Grande. 
Congressman Bonilla had to send another letter to the CEQ 
restating his position.
    Regardless of our expressed opposition against the 
designation of the Rio Grande as an American Heritage River, 
the nomination has continued to proceed. How many more 
resolutions do we need to pass? How many more letters do we 
have to write? How many more times do we need to testify that 
we do not want the Rio Grande designated as an American 
Heritage River? I think the big question down there is when are 
the CEQ and the panel going to listen to us?
    From the beginning, there has been a back-door attempt to 
get the Rio Grande listed as an American Heritage River, 
regardless of the views of those who live and work along it. 
There have been secret meetings, attempts to prevent the public 
have having a voice at the so-called public hearings and an 
unwillingness to accept the fact that the AHRI is not wanted 
for the Rio Grande.
    And I would like to quote an excerpt from the letter sent 
to Senator Hutchison by the CEQ dated May the 7th, 1998, signed 
by Kathleen McGinty. It states, ``The American Heritage Rivers 
Initiative is 100 percent locally driven.'' Now I ask, if the 
CEQ was really listening to the local communities, would the 
Rio Grande still be in consideration for nomination?
    Not only is AHRI in the process of being imposed on the 
local communities against their wishes, but this is another 
layer of bureaucracy that is not necessary. Do you have any 
idea how many Federal agencies already have their toes dipped 
in the Rio Grande River and are controlling every action 
involving that river? I tried to count them up this morning, 
and I quit at 33. You've got to remember every federation 
usually has two or three branches. From those branches, you can 
bet the state of Texas has got a matching entity in there. When 
you get into Mexico, every Federal agency in Mexico will have a 
bureaucracy level almost identical to that existing in the 
State of Texas and the United States.
    I can assure that you we have enough problems working with 
the EPA, the U.S. Fish and Wildlife, Army Corps of Engineers--
they pull some good ones--and the International Boundary and 
Water Commission under their current authority and programs 
that they have. These Federal agencies do not need to have 
their authority expanded under any program, especially a 
program that still does not have standards for evaluation and 
guidelines for establishing the priorities.
    Those of us who live along the Rio Grande understand better 
than anyone the need to clean it up. We all want to live in a 
clean environment, but creating another layer of government to 
work through is not the way to go about it.
    This is an international river, and it's going to take 
international cooperation to clean it up. What I think they 
lose sight of more than anything is 60 percent of that water is 
Mexico. There's three rivers feeding into the Rio Grande. We've 
got two, anyway. You measure the water. We're the junior 
partner in this cleanup campaign. And I can just see that this 
big bureaucrat is going to go over there and tell these guys 
that's holding 60 percent of the water what to do, and I can 
tell you what he's going to tell him.
    This is--it just takes a few minutes to visit with anyone 
who works and lives along the river, and you will soon come to 
realize that the Rio Grande cannot be treated like any other 
river. The culture and heritage that makes the river so special 
also creates many unique problems. I do not see that this 
initiative will address our unique situation, which will just 
serve to create more problems. Bureaucrats don't solve 
problems; they create them.
    From the very beginning, there has been a cloud of 
questions hanging over this initiative. What would a 
designation mean for river communities? What benefits or 
drawbacks would this hold for those who live along the river? 
And if it was such a good deal for the communities, why have 
the supporters felt the need to meet in secret and misrepresent 
the views of those who oppose the AHRI?
    These questions have never been answered, and I doubt they 
will be. It's been imposed--the AHRI has been imposed from the 
top down from the very beginning. And I'm here today to speak 
on behalf of the many counties, communities, citizens and 
organization who are represented by these letters and 
resolutions of nonsupport. They send a loud and clear message 
that we are opposed to the Rio Grande being designated as an 
American Heritage River.
    Thank you. I would be glad it to answer any questions.
    [The prepared statement of Mr. Richardson may be found at 
end of hearing.]
    Mr. Peterson. I would like to thank the panel. And I will 
offer time for questions. Congressman Gibbons, who has to leave 
shortly.
    Mr. Gibbons. Thank you, Mr. Chairman and gentlemen, also, 
for your patience and your effort to get here today to testify 
before us.
    I'm very curious where the information stems from that you 
heard that it would take all of Congress to opt out of this 
system when I--and I'm sure that the chairman sat here in this 
Committee and listened to Katie McGinty from the CEQ's Office 
state specifically that any Congressman in his congressional 
district could by request opt his district out of the American 
Heritage River Initiative. Which seems to be now that so many 
of us have taken that step, that there seems to be a transition 
and a change in attitude that hasn't been announced by the CEQ, 
but that doesn't surprise me.
    What I want to go to, and perhaps each one of you could 
talk to me a little bit and maybe help the Committee understand 
better, just what did this administration do with all of you in 
its efforts to explain to you what the American Heritage River 
Initiative would do for your individual areas when they were 
proposing it, when they were considering it? Did they bring you 
in, tell you what was going to take place, how it would be 
implemented, what actions would be taken, what course of--or 
what opportunities you would have in terms of contributing to 
the overall outcome?
    Maybe you could--each one just take a brief moment and 
explain to me what this administration offered in terms of 
meetings and explanations to each of you in your areas.
    Mr. Wesson. OK. From the State of Arkansas, the only thing 
I know they did was they got a hold of the Governor and--
through some of the county commissioners, and they tried to say 
how it was going to be a big tourism boost. And in southeast 
Arkansas where I live, nothing could be a big tourism boost. I 
mean that's the flat land, the delta. It's nothing but farm 
communities.
    They never put anything in any newspapers saying any public 
hearings, meetings or what have you in the State of Arkansas 
that I'm aware of. They just tried to make it that it's going 
to be the greatest thing that could happen to any river.
    Mr. Gibbons. Mr. Propes?
    Mr. Propes. We got the information from a very strange 
document. It was the Congressional Record. That was the first 
time we even knew there was any such a program being talked 
about. And, from that, we started doing some inquiry to see 
what it was. Because when the Willamette River was listed as 
one of the 100, there was originally a list with 100 rivers on 
there, and since it affects literally all of Polk County, our 
county, we were interested in what was going on.
    We sent letters back to Karen Hobbs asking questions about 
that, and to this day we've not had any contact back, and that 
was the August, 1997, letter. At that point in time, we were 
not opposed to it. We were just trying to figure out what it 
was. And then we heard from our people about that you could opt 
out locally.
    Never from the administration, we have never had any 
contact from the administration, never had any answers from 
them. So everything we've got has been through newsletters or 
other publications, and we've been following what those have 
said.
    Mr. Gibbons. Mr. Richardson?
    Mr. Richardson. They mailed us a letter, and of all things 
I think it come to us from TNRCC, which is Texas Natural 
Resource Conservation Commission. They did come down and talk 
to us a couple times, as I recall, just very more like a 
courtesy call than an informative call.
    They had some running around, trying to avoid anybody 
making any opposition to this in Marathon, Texas. And if you've 
ever been to Marathon, Texas, it's a lot of local humor. It's a 
very small place. It's hard to be secretive in Marathon, Texas.
    We have had some--most of that information, we were, in the 
county, were able to get come from the city councilman, that 
would say, hey--they would come over to us and say, what do you 
do with this thing? We said, we don't know, you know, and 
that's about it.
    Everybody got to looking at what could develop from it. And 
our commissioners sat down and they says, well, wow, we don't 
want any of this, and that's where we are today.
    Mr. Gibbons. Let me ask just a yes or no question from any 
of you. Do any of you know of public hearings that were held in 
your areas with regard to the proposal for the American 
Heritage River Initiative that might have allowed for your 
input into the creation of this initiative?
    Mr. Propes. No.
    Mr. Wesson. No, sir.
    Mr. Richardson. Just the one at Marathon is the only one 
that I'm aware of.
    Mr. Gibbons. How big is Marathon?
    Mr. Richardson. Oh, maybe 15, 20 houses, very small place. 
And we don't know.
    And this one--there was some attempts at intimidation about 
grants along in there. But my judge is 73 years old, and you 
couldn't intimidate him with a bulldozer, you know. He just--so 
that was the end of that discussion, and it didn't last long.
    Mr. Gibbons. Thank you very much, gentlemen. And I will 
yield back the balance of my time, Mr. Chairman.
    Mr. Peterson. Representative Chenoweth?
    Mrs. Chenoweth. Thank you very much, Mr. Chairman.
    Mr. Wesson, it's good to see you.
    Mr. Wesson. Glad to be here.
    Mrs. Chenoweth. I'm glad you're here. And Ballach Forest, 
where you work, is next to the Mississippi River. If this 
segment of the river is designated under the American Heritage 
Rivers designation, how do you believe that the local economy 
and communities will be affected? Have you addressed that in my 
absence?
    Mr. Wesson. Well, that's a good question. It really scares 
me because, about 4 months ago, the Ballach went into a joint 
venture with Anderson, actually, and bought 365,000 acres 
between the levy and river. And I have been talking to my CEO 
and some other people and I said, I hope you all realize if 
this American Heritage River comes by, you might have just lost 
everything you've got.
    It could very much affect us. We're all--the Mississippi 
River is a working river, and in southeast Arkansas we have 
agriculture. We have the paper industry. Like my mill, we get 
the water out of the river. We use it in the mill. We clean it 
up. We put it back in the river. Our chips come down the river 
to the mill, or the logs do, to our chip mill one.
    And, you know, the agriculture, the farmers use it for 
irrigation. There's several thousands of acres, if not hundreds 
of thousands of acres, between the levy and the river that on 
the years that the river don't flood, they use that for 
farmland. And it's a very big asset to the economic industry.
    And last week, a year ago this time, I met with Katie 
McGinty and Ray Clark at the CEQ, and at that time any person 
could opt out. I mean, it took a person to designate, and it 
took a person to opt out. Since then, they've changed it to, 
well, then your county has to opt out. Then they said your 
Congressman has to opt out. Well, last Thursday, we was told 
that even if your Congressman opts out, if your Governor wants 
it, you can still get it. So we don't know what the deal is.
    Mrs. Chenoweth. Very interesting. I think I understand what 
the deal is, and I think we will work to straighten that out. 
Because there was testimony before this Committee that if a 
Congressman wants to opt out, their areas will be opted out, 
and we intend to hold CEQ to that.
    I'd be interested in having anything in writing or even an 
affidavit from you with regards to the fact that a one-time CEQ 
made a promise that an individual could opt out. Could you help 
the Committee out on that, Mr. Wesson?
    Mr. Wesson. Sure. I would be glad to.
    Mrs. Chenoweth. I would very much appreciate that.
    Mr. Richardson--and I'm getting back to you, Commissioner--
but I understand that there was a high-level meeting last 
spring in Laredo. Did you address this?
    Mr. Richardson. We don't--we were not really very 
conversant about it, because we don't know anything about it.
    Mrs. Chenoweth. I understand in this meeting in Laredo they 
discussed the possible designation of the Rio Grande as an 
American Heritage River Initiative. Could you discuss the 
highlights of that meeting and if your county was invited?
    Mr. Richardson. We knew nothing of the meetings. But, 
generally, if we were invited to attend, I would know.
    Mrs. Chenoweth. So you were----
    Mr. Richardson. The mail comes to me.
    Mrs. Chenoweth. So the mail comes to you, and if you were 
invited, if the county was invited, you would know?
    Mr. Richardson. I would know. I believe I would know.
    Mrs. Chenoweth. And you did not receive an invitation?
    Mr. Richardson. No, we don't know anything about that.
    Mrs. Chenoweth. Well, the administration believes that 
designation of the Rio Grande will result in more cooperation 
with the Mexican government to clean up the river. As one who 
worked on the Border Patrol for 32 years and has lived in the 
area a lifetime, how do you feel about this?
    Mr. Richardson. They are very sensitive to any overt action 
by the American--I think the phrase is: Poor Mexico, so far 
from God and so close to the United States. They don't want us 
meddling in the thing. And you've got to remember, like I said, 
they own 60 percent of that water. We only own 40.
    There's three contributory rivers into there and two coming 
into our area anyway. Sixty percent of that water is theirs. 
They've had a session of bureaucrats telling them what to do 
and when to do it.
    My big fear when I was working in Mexico or conducting 
liaison with my counterparts across the river was some American 
politician would go to Mexico and run his mouth, because it 
would put us in a real strain. You can't treat your neighbor 
that way.
    Mrs. Chenoweth. And so three of the contributing rivers 
come from Mexico that make up 60 percent of the water in the 
Rio Grande and two of the tributaries come from America?
    Mr. Richardson. That's correct.
    Mrs. Chenoweth. And you don't treat your neighbors that 
way?
    Mr. Richardson. I don't think the nature--human nature 
being what it is, that, yes, they're very--they understand. 
They know about--they have the maquilas to appease, the 
Americans, the maquila industries have expanded their 
operation. If you crowd those officials in Mexico, they merely 
state, hey, the pollution comes from the American factory and 
look at you and smile.
    Mrs. Chenoweth. Yes.
    Mr. Richardson. What are you going to answer? I don't think 
Mexico is ready for another layer of our bureaucracy. I really 
and truly don't.
    Mrs. Chenoweth. We're not ready for it either.
    Mr. Richardson. I don't think they will work with you to 
clean it up. I believe that. But you're not going to tell them 
or exert--they call it Yankee supremacy, whatever. You're just 
not going to do that down there. So my--I don't think the way 
to go is another government bureaucracy.
    Mrs. Chenoweth. Thank you, sir.
    Commissioner, it's good to see you. You're a neighbor of 
mine.
    Mr. Propes. Yes.
    Mrs. Chenoweth. And I share your concerns about the Blue 
Ribbon Panel on the American Heritage Rivers Commission. In 
fact, that panel would not allow me to even address the public 
last month in Washington, which is unusual.
    Your testimony mentions that two of those committee members 
are from Oregon.
    Mr. Propes. Yes, they are.
    Mrs. Chenoweth. How did these two members respond when they 
learned that four affected counties and Senator Gordon Smith 
have formally requested the Willamette not be designated?
    Mr. Propes. We have not heard any response from them at 
all.
    Mrs. Chenoweth. From the commissioners?
    Mr. Propes. Yes. It seems to be definitely silence when we 
try to get information about what's going on. We don't get 
letters returned when we've asked questions. It's almost as if 
we don't exist.
    Mrs. Chenoweth. My word. Are you aware of any other Federal 
program that has been this unresponsive to the wishes of Polk 
County Commissioners?
    Mr. Propes. Besides Endangered Species Act? No, we haven't. 
And, actually, the other Federal programs, we've worked with a 
lot of Federal programs, and they've been very responsive to 
us. We may not always agree with the outcomes, but we get 
answers back, and they're responsive.
    Mrs. Chenoweth. With the amount of opposition, why do you 
believe that the river is still being considered for 
designation?
    Mr. Propes. Well, our Governor is in favor of the 
designation. But we were led to believe that if local areas opt 
out, that you could get out of it. And that was nothing that 
was told to us by any Federal agency. It was just different 
things we had read on it and information that we had received. 
And then, when we found out we couldn't opt out locally, we 
went to our senator and Congressman, and they opted us out. And 
then we have heard that that doesn't work either.
    Mrs. Chenoweth. Well, they keep moving the goal post, and 
we keep trying to plant them.
    Mr. Propes. Yes, that's what it appears to be.
    Mrs. Chenoweth. I think, Commissioner, it might be awfully 
good if your Governor talked to some of his friends in Lane 
County. I'm very pleased that Lane County opted out.
    Mr. Propes. Yes. Lane County is a major county that would 
be affected--could be affected by this. If you read all of 
our--that's our problem. We do not know what this means. All we 
know is that it's another Federal program, and it has so few 
specifics in it and in the Federal Register, we just absolutely 
can't tell. We've asked questions. Nobody can answer our 
questions.
    So we feel it's better not to be in the program until we 
know what it is. If it's a good program, we will be knocking on 
the door wanting in. But that's the way Federal programs should 
be. They should be designed that if there's a need in a local 
area for that Federal program, the local areas come after it. 
They shouldn't be pushed down on this.
    Mrs. Chenoweth. Thank you very much, Commissioner.
    Thank you, Mr. Chairman.
    Mr. Peterson. Thank you.
    I just thought I would share for the record here the words 
of Katie McGinty, Madam Chairman. I would like to offer some 
declarative statement about this program, because it's helpful 
to clarify, I think, in simple terms what this is and what it 
is not. What it is it's 100 percent voluntary. Communities 
don't have to participate. And after participating at any time, 
a community can opt out. It's 100 percent locally driven. This 
is purely a bottom-up process, whether to participate in the 
plan for participation is completely under the control and in 
the hands of the local citizens.
    I think they've broken those rules already.
    In response to Mr. Cannon about could it be--these rivers 
be employed politically, well, I would also remind us that a 
community--any community is not going to be a part of this 
program at all in order for that scenario to eventuate, unless 
they have elected to become a part of the program. So that, for 
example, if you have in mind that this is a political tool and 
places will be chosen around the country for political favor, 
that is, I think, pretty well precluded by the notion that it's 
not top down, communities participate from the bottom up.
    And one more statement for the record here.
    Ms. McGinty--well, let me say several things.
    First of all, in terms of the veto, a Senator will have the 
right to exercise a veto as well as a Member of Congress in 
whose district this river or stretch of river might run.
    In addition, the Federal Register notice makes clear the 
authorities of the State and also the necessity of having State 
support. It itemizes, for example, letters of endorsement from 
not just local governments but State and tribal governments. It 
also makes clear, as it says here, of course, any projects 
identified in the nomination packet must undergo applicable 
State review process.
    After our conversation it also makes clear that the 
American Heritage Rivers Initiative, for example, may not 
conflict with matters of State and local government 
jurisdiction, and it goes on.
    But it seems to me like her statement here that day--and 
she sat in the same chairs with Bruce Babbitt, if my memory is 
correct, at least the day I was here.
    I would like to commend you for your testimony.
    Ms. Chenoweth, do you have any further questions?
    Mrs. Chenoweth. No, Mr. Chairman, I have not.
    Mr. Peterson. I would like to thank you for traveling here 
and participating.
    I guess one final thought I might have, would a legislation 
that forces them to hold a large public hearing in each region 
before designating be something that would be helpful?
    Mr. Propes. It would be helpful. But I'm still not sure if 
everybody showed up and said we don't want it that they still 
wouldn't list us. It seems like there needs to be something 
that there is actually a way not to get listed, if there is 
enough support for that.
    Mr. Peterson. There may be 200 votes for that. I'm not sure 
there's 218. That's our problem. We have some here with not 
much courage when it comes to going against those who have a 
plan for this country that we don't happen to agree with. But 
it would seem like it would be less threatening to them that if 
they were at least forced to hold a well-described, good, 
thoughtful public hearing in each region, which would at least 
allow all of those, they should have the right to publicly 
state why they have concerns.
    Mr. Propes. That would certainly be better than the process 
we've gone through.
    Mr. Peterson. With no further advice from the real 
chairman, I would consider this hearing adjourned.
    [Whereupon, at 4:15 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
   Statement of Ron Arnold, Executive Vice President, Center for the 
                       Defense of Free Enterprise

    Mr. Chairman and Members of the Committee, my name is Ron 
Arnold. I am testifying as the executive vice president of the 
Center for the Defense of Free Enterprise, a nonprofit citizen 
organization based in Bellevue, Washington. The Center has 
approximately 10,000 members nationwide, most of them in rural 
natural resource industries.
    Mr. Chairman, I am proud to state that the Center does not 
accept government grants and has not received any government 
funds since the day it was established on American Bicentennial 
day, July 4, 1976.
    Mr. Chairman, I would like to thank you on behalf of our 
members for holding this hearing today. It is timely indeed. 
For the past year, at the urging of our increasingly concerned 
members, the Center has been conducting an in-depth study of 
Federal policy and rural communities. Our study, titled 
``Battered Communities,'' is being released at this hearing. 
You will find it attached to my hearing statement.
    ``Battered Communities'' was co-sponsored by three other 
citizen groups, the American Land Rights Association, 
F.I.G.H.T. for Minnesota, and the Maine Conservation Rights 
Institute.
    ``Battered Communities'' delves into serious matters of 
Federal policy as it affects rural community life. On page 5 we 
address the most obvious problem, the urban-rural prosperity 
gap--the spread in wages and unemployment between the richest 
and poorest counties within each of the 50 states. While urban 
America today enjoys an economic boom, rural counties are 
finding themselves choked to death by Federal restrictions 
designed to protect the environment from the people who live 
and work in the environment.
    The most disheartening aspect of the conflict over the 
environment is that rural goods producers ranchers, loggers, 
miners--are becoming a despised minority, morally excluded from 
respect and human decency, even in Federal documents such as we 
see on page 7 in an Environmental Impact Statement 
characterizing miners as costly, destructive, stupid social 
misfits.
    Now we turn to the visible damage: Rural communities are 
besieged by a bewildering array of Federal policies forcing 
them to starve in the midst of plenty. These policies are 
listed in part on page 8.
    Mr. Chairman, let me call your attention to the most 
serious problem our study uncovered: the systematic effort of a 
triangle of interests to harness Federal policy to their own 
agenda, against natural resource goods producers.
    The Center has identified a small corps of activist Federal 
employees--from the highest levels to on-the-ground 
technicians--working to reshape Federal policy from within 
according to agendas that paralyze goods production in rural 
communities. Pages 13 through 17 discuss a few of these 
activist Federal employees. To see their impact, you will find 
on page 24 a chart of systematic timber sale appeals, filed in 
a coordinated pattern by a bevy of environmental groups. We 
found the frequent outcome was that the Forest Service simply 
withdrew the timber sale without even ruling on the appeal. The 
resulting mill closures are charted on page 25.
    This certainly appears to be undue influence. Yet that is 
not the whole story. These environmental groups were in many 
cases acting at the behest of their donors on grant-driven 
programs not designed by the environmental groups, but 
originating within grantmaking private foundations. We 
discovered, in documents such as this thick directory of 
environmental grantmaking foundations, a cluster of multi-
million dollar campaigns designed to set public policy against 
logging, mining and ranching according to the private 
preferences of a few custodians of vast wealth. Some of these 
foundations do not even accept applications for grants, but 
design entire programs of social change themselves and hand-
pick the groups that will act as their agents, pushing non-
profit laws to the edge. In the hands of these privileged 
people, Federal policy is being corrupted into a blunt 
instrument battering rural communities.
    Mr. Chairman, these are serious charges. On page 35, the 
Center recommends that this Committee continue its adoption on 
this vital issue with a detailed investigation of the causes 
behind America's rural Battered Communities.
    Thank you again, Mr. Chairman, for holding this hearing on 
the anguish of rural America.
                                ------                                


 Statement of John Conley, President, Concerned Alaskans for Resources 
               and Environment (CARE), Ketchikan, Alaska

    Mr. Chairman:
    My name is John Conley, I am the president of Concerned 
Alaskans for Resources and Environment (CARE). I have also 
served six years on the Ketchikan Gateway Borough Assembly and 
manage three NAPA auto parts stores located in Ketchikan, 
Craig, and Wrangell Alaska.
    The passage of the Tongass Timber Reform Act of 1990 (TTRA) 
was to be the great compromise for the Tongass National Forest. 
TTRA was supposed to provide increased environmental protection 
as well as a sustainable forest products industry. I have 
witnessed the closing of two pulp mills in Southeast Alaska and 
several sawmills. At the same time I have witnessed increased 
funding of local environmental groups by tax exempt national 
foundations.
    These closings have greatly affected both my business and 
my community. In Ketchikan alone, we have lost over 544 forest 
product jobs, 144 retail and support jobs, and $40 million of 
local payroll. Today my company employs eight less people and 
its gross receipts have declined by $1.5 million. As I look 
toward the future I am extremely concerned about supporting my 
family and the families of the 30 remaining employees in my 
stores. Access to natural resources is vital to Southeast 
Alaskans and is guaranteed by the Alaska Statehood Act.
    Environmental groups have stated that tourism can and will 
replace lost forest product industry jobs. Mr. Chairman, this 
is simply not true. Tourism is important to our local economy 
and throughout the state. I have supported and will continue to 
support this growing industry. However, it a seasonal industry 
providing only seasonal jobs; it does not provide families with 
the benefits of year round employment. These jobs will also not 
replace the 25 percent return to our communities for education 
and transportation based on timber receipts.
    Mr. Chairman it has become obvious to many, that increased 
funding by national tax free environmental foundations to the 
local environmental industry leads to decreased economic 
activity and local employment. The environmental industry 
states they support a value added timber industry for Southeast 
Alaska. Mr. Chairman, my community and I are confused because 
these same groups continue to object to harvest quantities 
adequate enough to sustain even a small value added forest 
products industry.
    The Forest Service has a legal mandate to manage our 
national forests for multiple uses which include timber 
production. The new land management plan for the Tongass (TLMP) 
drastically reduced the amount of land available for a long 
term sustainable timber industry in Southeast Alaska. Even with 
this massive reduction of the available sale quantity on the 
Tongass the environmental industry continues to fight timber 
production. This is not acceptable. At a minimum we need to 
sustain our current economy. Legal challenges orchestrated and 
financed by the national environmental lobby continues to block 
multiple uses on the Tongass National Forest which is 
preventing our ability to maintain a stable economy.
    Mr. Chairman I believe it is time to make these tax exempt 
foundations that fund the environmental industry accountable. 
As a businessman if I were to provide money to someone which 
they in turn used to destroy another business that would be an 
illegal act under the RICO laws and I would be held 
accountable. Mr. Chairman and members of the Committee, for the 
sake of my family and the families of my community I urge you 
to hold these foundations accountable.
    Thank you Mr. Chairman and members of the Committee for the 
opportunity to testify today.
                                ------                                


   Statement of Y. Leon Favreau, President, Multiple Use Association

    Thank you Mr. Chairman and members of the Committee on 
Resources for allowing me to express my views on the impact 
Federal land use policies could have on a rural community like 
mine. We agree with your statement that too often ``Federal 
policies are developed from Washington, DC with little input 
from rural communities that are most impacted.''
    My name is Leon Favreau, president and co-founder of the 
Multiple Use Association (QUA). Our 500-member group is based 
in Shelburne, NH, and has been in existence since 1987. Most of 
our efforts go towards exposing the public to the truth about 
our nation's forests. This is something that is dearly needed 
as too much bad information about forests is promulgated by our 
nation's powerful environmental groups and by the media. 
Everybody says they want a good forest environment. To achieve 
this, however, we need to deal with the facts as they are and 
the truth as it is. You will soon see the results of some of 
our work when you receive an Evergreen Magazine issue on the 
Northern Forest Lands. We helped raise the funds needed for the 
production costs for the issue that will show the Northern 
Forest Lands as they are.
    I am also president of Bethel Furniture Stock, Inc., a 
primary and secondary wood products manufacturing firm that 
produces component parts for the furniture industry. Our 
innovative wood bending process, introduced in 1986, has helped 
us become what may be this country's largest custom bender of 
solid wood. The last title I will share with you is that of 
Chairman of the Budget Committee for the small town of 
Shelburne, NH.
    The concerns that I would like to express today have to do 
with S. 546, ``The Northern Forest Stewardship Act.'' As you 
may know, the so-called Northern Forest Lands (NFL) are 
comprised of 26 million acres of primarily private forest lands 
that span the state boundaries of Northern Maine, New Hampshire 
& Vermont and Eastern New York. The Stewardship Act purports to 
prevent harm from coming to these lands and its resident one 
million people.
    MUA supported the study performed by the Northern Forest 
Lands Council that tried to determine what constituted a threat 
to the forest. The report may have broken new ground by showing 
so much concern for local people.
    The Stewardship Act, however, is different. It doesn't 
follow the spirit of the Council's work. We believe it will 
lead to greater Federal control over our local communities. The 
Council made it very clear they did not recommend increased 
control. While local communities participated in the NFL study, 
they haven't participated in the preparation of this 
legislation. Local hearings are necessary to correct that.
    I know you have heard from some in the timber industry that 
support the Act. I'm here to tell you that most of us in the 
local timber industry are against it. We understand that this 
is just another step down a slippery slope that will mean it 
will be even more difficult for us to do business in the NFL 
area. Increasing the focus on government land and easement 
acquisition, which the Act does, will mean a reduction in the 
availability of timber.
    A good local example of what happens when the government 
owns forest-land is to look at the recent occurrences of the 
White Mountain National Forest (WMNF). In less that 10 years, 
the harvest level has been reduced from a one half of sustained 
growth to a quarter. No one is confident even that low level 
will be maintained. For the town of Shelburne, it used to be 
considered an asset to have close to half its land in the WMNF. 
Now it reduces our tax base and local employment.
    Since the NFL Council's report found that our varied 
forests really weren't threatened, one needs to ask, why all 
this national interest in our 26 million acres? There was never 
any local groundswell to put more Federal or State controls on 
these private lands. Nor was there any local groundswell for 
more government land purchases. Instead, this drive to change 
local land use comes from a vision concocted for us by our 
elite from national environmental and charitable foundation 
communities. They initially promoted as examples to be copied 
for our area, controlled ``greenline'' areas such as the 
Federal Columbia River Gorge Scenic Area and the New York State 
Adirondack Park.
    The term ``greenline'' has now been discredited in the NFL 
area, partially because we brought out a mayor from the 
Columbia River Gorge who gave a devastating description of what 
it was like living and working at home in his elite controlled 
area. Widely distributed copies of his talk had a chilling 
effect. Greens no longer mention the term greenline, but there 
is no doubt in my mind that is still their goal for those of us 
who live and work in the NFL area.
    Consider the following:

        1. The Wilderness Society sponsored a closed conference for 
        forest activists in Bethel, Maine, November of 1990 and 
        greenlining was on the agenda. Attached is material from this 
        meeting. It is telling they called greenlining a ``game.'' The 
        elite is playing a game with our livelihoods. At this same 
        meeting, an Executive Vice-President of the National Audubon 
        said he wanted to take the northern forest ``all back,'' and he 
        encouraged attendees to ``be unreasonable . . . you can do it . 
        . . today's hearsay is tomorrow's wisdom . . . it happens over 
        and over again.'' So much for promoting the truth.
        2. At a meeting held in Lincoln, NH in April of 1991, a 
        prominent member of both the environmental and foundation 
        communities said he had visited all the greenline areas (and he 
        named them) and he agreed that none of them work, but he said 
        he ``just knew we could make it work here.'' He said this in 
        response to my criticism of the land and people control system 
        of greenlining. He labeled my thinking as bunker mentality. He 
        also said that the environmental community had $100 million to 
        spend on trying to achieve their goals for the Northern Forest 
        Lands. Given the number of known grants given to the 
        environmental associations that comprise the Northern Forest 
        Alliance and by observing all their efforts, we believe this is 
        possible. This individual's statement on funds took on added 
        meaning when we later learned he served at the time on the 
        board of the Environmental Grantmakers Association (EGA).
        3. Tapes of the October 1992 EGA meeting off the coast of the 
        State of Washington revealed its interest in the NFL area. 
        These same tapes revealed some interesting information about 
        the discrepancy between what they knew about wise use groups 
        and the information they were promoting about them.
    History has shown that when greens take a special interest in 
certain legislation or regulation, it doesn't end up used as was 
intended, but to further their goals. Two examples that come to mind 
are the Endangered Species Act and regulations on wetlands. Nobody 
intended for them to be used as they have. The green's substantial 
political, financial and bureaucratic clout allows them to change 
intents.
    S. 546, I believe, will do nothing to help our rural communities. 
Almost everything in the Act is already occurring at some level. It 
will be another tool to help the greens and their funding foundations 
further their land use control goals, which I believe is ``greenlining 
and much more government ownership.'' If the Act is passed, the local 
citizen's fight to maintain his or her land use rights and way of life 
will be raised to a higher and more difficult level. Senator Leahy 
isn't helping his constituents who live in Vermont's NFL area when he 
continually tries to attach the Act to other pieces of Senate 
legislation. I ask you to think of people like me when you consider 
whether to pass on a companion House bill.

[GRAPHIC] [TIFF OMITTED] T9510.001

[GRAPHIC] [TIFF OMITTED] T9510.002

[GRAPHIC] [TIFF OMITTED] T9510.003

[GRAPHIC] [TIFF OMITTED] T9510.004

[GRAPHIC] [TIFF OMITTED] T9510.005

[GRAPHIC] [TIFF OMITTED] T9510.006

[GRAPHIC] [TIFF OMITTED] T9510.007

[GRAPHIC] [TIFF OMITTED] T9510.008

[GRAPHIC] [TIFF OMITTED] T9510.009

[GRAPHIC] [TIFF OMITTED] T9510.010

[GRAPHIC] [TIFF OMITTED] T9510.011

[GRAPHIC] [TIFF OMITTED] T9510.012

[GRAPHIC] [TIFF OMITTED] T9510.013

Statement of R. Edmund Gomez, New Mexico State University, Cooperative 
 Extension Service, Rural Agricultural Improvement and Public Affairs 
                      Project, Alcalde, New Mexico

        Statement made and exhibits presented to the United States 
        House of Representatives Committee on Resources on the impact 
        of Federal land use policies on rural communities, June 9, 
        1998.
    The use of communal lands in northern New Mexico dates back over 
four hundred years. These same lands are now considered Public lands 
and the descendants of the indigenous people and the first settlers 
have continued to utilize them for as many generations. The people of 
northern New Mexico rely on these Public lands for economic, cultural, 
social and spiritual survival. Federal land use policy without 
community input may adversely affect the survival of rural communities 
in northern New Mexico.
    My name is Edmund Gomez and I live in Alcalde, New Mexico. I speak 
on behalf of my neighbors, friends, and family who rely heavily on 
Public lands for economic, cultural, social and spiritual survival. As 
an active member of the USDA Commission on Small Farms which was 
commissioned by Mr. Dan Glickman, USDA Secretary of Agriculture in July 
of 1997, I also speak on behalf of small farmers and ranchers from 
rural communities across the country who rely on Public lands for 
economic survival.
    The purpose of the USDA Commission on Small Farms was to recommend 
to the Secretary of Agriculture a national strategy to ensure the 
continued viability of small farms and ranches and for the Commission 
to determine a course of action for USDA to recognize, respect and 
respond to their needs (Exhibit A: National Commission on Small Farms, 
A TIME TO ACT, 1998).
    Communal land use by residents of New Mexico and the Southwest has 
historical roots dating back to 1598. During Spanish colonial 
settlement, community land grants were granted by Spain and later 
Mexico to groups of settlers and Native American Pueblos in New Mexico 
and the Southwest (Exhibit B: Torrez, THE ENDURING LEGACY OF SPANISH 
AND MEXICAN LAND GRANTS IN NEW MEXICO, 1998). Many of these tracts of 
land are currently held as Public lands by the USDA Forest Service and 
the Bureau of Land Management. Descendants of the Spanish and Mexican 
land grants have continually utilized these lands for livestock 
grazing, fuel wood, hunting, and timber harvesting as well as a source 
of watershed for domestic, livestock and agricultural use (Exhibit C: 
Meyer, THE CONTEMPORARY SIGNIFICANCE OF THE TREATY OF GUADALUPE HIDALGO 
TO LAND USE ISSUES IN NORTHERN NEW MEXICO, 1998).
    New Mexico ranks forty ninth in per capita income. The northern 
counties of New Mexico are some of the poorest in respect to per capita 
income in the country. Over 50 percent of the land base in New Mexico 
is owned by the Federal Government. Many of the residents of northern 
New Mexico including the Native American Pueblos own very small parcels 
of land. Some sociologists attribute the correlation of poverty to the 
proportion of private versus Public land ownership. Many of these 
Public lands were once owned by the ancestors of these rural 
communities.
    Livestock production represents over 85 percent of all agricultural 
income in northern New Mexico. The average livestock producer in 
northern New Mexico owns twenty head of cattle and utilizes Public 
lands. Within the past fifty years, from 30 to 60 percent of the 
traditional savanna grasslands in the Carson and Santa Fe National 
Forests have been lost to woody shrub and tree encroachment due almost 
entirely to fire suppression, thus causing loss of livestock and 
wildlife habitat and economic stability within rural communities. The 
snow ball effect. Some groups who desire to eliminate livestock grazing 
from Public lands claim that ranchers are becoming rich off of Public 
lands (Exhibit D: Wolff, THE CITY SLICKER'S GUIDE TO WELFARE RANCHING 
IN NEW MEXICO, 1998). I have yet to meet a wealthy indigenous rancher 
from northern New Mexico and I have lived there all of my life.
    Many of the residents of northern New Mexico, including Indian 
Pueblos, rely on Public lands for fuel wood and timber harvesting as 
did their ancestors. A large percentage of these residents utilize fuel 
wood as their only source of heat and cooking fuel. In 1994 a special 
interest group filed a litigation suit based on the Endangered Species 
Act with the USDA Forest Service on behalf of the Mexican Spotted Owl 
on the Carson National Forest. In 1996 a Federal Court restricted all 
harvest of timber and fuel wood on the Carson National Forest until the 
Forest complied with the Endangered Species Act. This action prevented 
local residents from obtaining fuel wood for heating and cooking. Many 
families endured a very cold winter that year because of this inhumane 
action. Incidentally, the Mexican Spotted Owl has never been 
historically documented as living within the Carson National Forest.
    Why do indigenous people continue to live in northern New Mexico 
rural communities? The indigenous people of northern New Mexico speak 
seven languages, including English. They have retained their culture, 
tradition, social values and spirituality. They were the first and 
continue to be the true environmentalists of the land, utilizing the 
sustainable practices that have fed and clothed their children for many 
generations; always returning more than they take. The pristine beauty 
of the land remains intact and attracts a new wave of settlers every 
year. Rural communities in northern New Mexico work and live as a 
family. This social and cultural custom has given support during 
adverse situations and has allowed them to raise their children with 
the same values that have been sacred to the people for many 
generations.
    Congress has passed legislation dealing with Public land policy and 
environmental issues that were deemed necessary and essential, but a 
one size fits all policy does not work for all Public land situations. 
Congress has overlooked the endangered rural communities and their 
struggle for survival and a traditional way of life. We are just as 
important as the other endangered species Congress is protecting. Rural 
communities were excluded when Congress developed policy that would 
ultimately affect their livelihood. Mr. Chairman and members of the 
Committee, please find ways of amending the Clean Water Act and the 
Endangered Species Act so that they will provide for the protection of 
the environment as they were intended and not to be used as loopholes 
for special interest groups who continue to file litigation against the 
USDA Forest Service in an effort to promote their own agenda. Provide 
Congressional provisions to establish local community based Public land 
management boards which will determine the management objectives for 
the local Public land base and would include both environmental and 
economic considerations. This process will insure that rural 
communities who traditionally rely on the land for survival will be 
included in the policy decision process for their region.
    Mr. Chairman and members of the Committee, I extend an invitation 
to visit with us in northern New Mexico so that you may first hand meet 
real people who have utilized Public lands for over four hundred years. 
Who depend on these lands for survival and the real people who have 
retained their culture and spirituality because of their harmony with 
the land. Please accept my invitation before the rural communities of 
northern New Mexico have become extinct;
    Thank you.
                                 ______
                                 

                      Statement of Hugh B. McKeen

    Chairman Young and members of the Committee, first let me 
thank you for the opportunity to speak before you today, 
although this is the last place I want to be today or any day. 
My name is Hugh B. McKeen and I am from Glenwood, New Mexico, 
where I live with my wife Margie, my mother Emma Jo, my brother 
Bob, his wife Donna, and their two children.
    We are a family ranching operation that has been part of 
Southwestern New Mexico since 1888 when my grandfather settled 
there. Our land holdings are made up of state, private and 
Federal lands that are co-mingled to make up a ranching unit 
that supports eight people as well as providing part of the 
economic base for Catron County and rural New Mexico.
    We earn everything we have. Margie and I raised four 
children off the ranching operation. We do not have Federal or 
company insurance and retirement plans. We do not get paid 
vacations. We pay our taxes and we've never been on welfare.
    In addition to owning the ranch, I have served as a 
Commissioner for Catron County, so I have first hand knowledge 
of what is happening in rural areas of my state, as well as the 
rest of the West.
    I was asked to come here and speak about the impacts of the 
Federal land use policies on rural communities. My personal 
dealings with Federal land management agencies have been with 
the U.S. Forest Service.
    We were raised to take pride in our country and our 
government. Bob and I both served in the U.S. Army. Bob was a 
paratrooper. Once we might have considered ourselves a partner 
with the Forest Service, working to protect and preserve the 
land so we could pass it on to the next generation in better 
shape than it was passed to us.
    That hasn't been the case for quite a long time. Not only 
are we not a partner, but we are THE enemy. We have learned to 
distrust and fear the government that we were raised to believe 
was of the people, by the people, and for the people.
    On one hand, I can agree with the radical environmentalists 
who are suing the agencies left and right. The government has 
not done a good job of managing the land. Our forests are in 
terrible shape. They are powder kegs waiting to explode with 
such force that after the fires are over; the land will be 
useless to anyone. The fuel load in most Southwestern forests 
today compares with parking 20 or 30 fuel tankers on the land 
and setting them on fire. Additionally, this growth depletes 
our underground water sources, adversely affects watershed 
quality and quantity, and increases parasites and diseases.
    But that is not the fault of livestock grazing or logging 
or recreational use and the demise of these industries will not 
solve the problem. It will only get worse. Unless and until the 
Forest Service undertakes an aggressive management program that 
stops choking the forests with too many small trees that don't 
allow full maturity of any trees, that prohibits the growth of 
natural forage to provide habitat for wildlife and livestock, 
the situation is only going to get worse.
    However, the radical environmentalists aren't suing the 
government to protect the land. They are suing the government 
to control the land and the government is working right along 
side them.
    I have had numerous run-ins with the Forest Service over 
the past several years and I am currently involved in several 
lawsuits involving the Forest Service. In 1995 in renewing my 
term grazing permit, which is for ten years, the Forest Service 
not only didn't do the studies they said they had on our 
allotment, they didn't even know what was private property and 
what was government lands. AND they falsified data. AND they 
shredded positive information.
    Even though they finally admitted that they had false 
information, the Forest Service refused to correct the record 
because the studies had been completed and filed.
    Because I knew what these changes in our operation would do 
to our ability to feed our families, I initially refused to 
sign the permit, although I had a time frame in which to come 
to a final decision. Our operation is financed by the Farmers 
Home Administration (FHA). Prior to the time was up for me to 
sign the permit, the Forest Service contacted FHA and told them 
I would not have a permit.
    I immediately received foreclosure notice from FHA. I was 
forced to sign the permit, which I did, noting that the 
signature was under duress. I am now part of a coalition of 26 
permittees in New Mexico and Arizona who are suing the Forest 
Service for the changes in our permits that will put us out of 
business. One lady from Arizona had her permit cut by 80 
percent and her season of use by one month. What are we 
supposed to do with our cattle for a month? You can't just stop 
feeding them and stack them up in a warehouse until the Forest 
Service decides to let us on to country that we have used for 
generations.
    Why did the Forest Service make these radical changes? 
Because they were afraid they MIGHT be sued and because they 
have a computer model and aerial and/or satellite photographs 
that tell them there MIGHT be a problem. In Federal District 
Court last month, the Interdisciplinary Team Leader who was in 
charge of these cuts admitted that the team spent a day and 
half on the ground actually looking at the tens of thousands of 
acres of land before making these decisions. He also admitted 
that many of the decisions made were done solely by he and his 
wife.
    We spent a little over a day-and-half last month in Las 
Cruces on a motion for preliminary injunction to stop the 
Forest Service from implementing their decisions until the 
merits of our case have been heard. I was shocked to see 18 
Federal employees on hand for the first day of this hearing. 
Only 15 showed up for the second day.
    My family and fellow permittees had to take time away from 
our operations to defend ourselves against the government. We 
were not paid for the time we spent in court, nor were our 
expenses paid for us to drive to or stay in Las Cruces for the 
hearing. But our tax dollars paid for the time and expenses of 
all of these folks. What was even more frustrating is that with 
all those people sitting there, the government was represented 
by only two attorneys who called only three witnesses. What 
were those other 10 guys for and how much did they cost us?
    We hear constant whining about how the agencies don't have 
enough money to do their jobs properly. And some of it may be 
justified. The Endangered Species Act and the Clean Water Act 
are certainly proving to be unfunded mandates. These laws 
provide for citizen lawsuits that allow radicals to sue the 
agencies at every turn for not meeting the letter of the law.
    There probably isn't enough money in the entire Federal 
Government to pay for the things the radical environmentalists 
want, and in that respect we can sympathize with the agencies. 
But the agencies working in concert with the greens to put 
working American taxpayers out of business isn't going to solve 
the problem. It isn't going to protect the land or the wildlife 
and it isn't going to help the government.
    Evidence of the Forest Service's collusion with the 
radicals is the new proposed amendment for the Forest Plan for 
the Southwestern Region. This document has the power not only 
to eliminate grazing from National Forests, but all human use. 
One prize quote in the document that even the U.S. Secretary of 
Agriculture cannot define reads:

    ``Allow no activities that slow or prevent progression of 
potential habitat (habitat within 10 years of becoming 
suitable) toward suitable conditions, or that reduce the 
suitability of occupied or unoccupied suitable habitat.''
    It further reads, ``the term `species habitat' encompasses 
all stream courses (bank to bank) which are occupied, 
unoccupied suitable, potential, or designated or proposed 
critical habitat . . .'' Another area says, ``exclude off-road 
vehicle use from within species habitat and riparian areas.''
    Given the first quote, it sounds like ``species habitat'' 
could be virtually anywhere any thing might want to go . . . 
including your neighborhood McDonalds.
    Most of us in natural resource industries have our whole 
lives and that of our families for generations invested in our 
operations. Our ranches aren't just jobs. They are our homes, 
they are our culture. They are our values. They are our lives. 
If we are forced off our ranches, where are we to live? How are 
we to feed our families?
    I often hear these questions compared to the buggy whip 
industry. Nobody saved them. Why should any useless industry be 
saved? We are not producing a product that is no longer needed. 
We are part of a minute percentage of Americans, less than 2 
percent, who provide food and fiber for the rest of the nation 
as well as a large part of the rest of the world. We are part 
of the safest and most wholesome food supply in the entire 
world.
    Our Cedar Breaks allotment is also at issue in two suits 
filed by radical environmentalists against the Forest Service 
in New Mexico and Arizona regarding endangered species. Instead 
of standing their ground and fighting, the Forest Service 
rolled over and negotiated a ``stipulation'' with the greens 
that would require fencing some 60 of 160 allotments off 
riparian areas and biweekly or weekly monitoring by the agency.
    Fortunately, the livestock industry had intervened in the 
suit on behalf of the permittees involved because the Forest 
Service certainly exhibited no concern for them or their 
rights. The industry refused to sign off on the stipulation so 
the Court refused to sign it. THEN the Forest Service and the 
greens simply made the document a settlement agreement that did 
not require the participation of the livestock industry or the 
Court and went on their merry way. Never did the Forest Service 
consult with the permittees or consider the private property 
rights they were impairing if not outright taking.
    In New Mexico water is a private property right. Many of 
the fences the Forest Service has agreed to put up will prevent 
water right owners from using their water and could subject 
them to forfeiture of the right for non-use. Additionally, 
there is private property co-mingled with the Forest Service 
lands that will be affected by the fencing.
    Not only does the settlement agreement affect private 
property rights, but it breaks numerous other Federal laws as 
well as the Forest Service's own policy. The National 
Environmental Policy Act (NEPA) calls for assessment to be done 
on the environmental, economic, social and cultural impacts of 
major Federal actions. The potential of erasing some 60 small 
business in one region certainly appears to be a major Federal 
action in my book, but the Forest Service entered into the 
settlement agreement without complying with NEPA on the 
affected allotments.
    The Forest Service violated the Administrative Procedures 
Act (APA) by failing to allow grazing permittees to participate 
in actions and decisions relative to their individual 
allotments. The Forest Service violated its' own policy by 
providing no formal decision documents to permittees that are 
appealable.
    The Forest Service's own acting Director of Range for the 
Southwestern Region admitted under oath in Federal District 
Court in Tucson that their actions would result in numerous 
appeals and lawsuits.
    Making the situation even worse is the fact that even if 
the Forest Service weren't breaking all of these laws and 
regulations in the name of the Endangered Species Act and every 
permittee was happy to comply, the Forest Service would not be 
able to keep up their end of the bargain with the agreement. 
The elk in the area won't permit it. In a 20-mile radius of 
Reserve, New Mexico, the New Mexico Game & Fish Department 
estimates there are 10,000 head of elk. That is one-seventh of 
the total elk population in New Mexico. Those elk don't know 
about the settlement agreement and they are going to tear down 
fences. When the fences are down, the cattle are gong to cross 
them, and then the permittee is in trouble. Forest Service 
employees have already admitted publicly that they won't be 
able to keep the fences up.
    Additionally, where is the Forest Service going to get the 
personnel to monitor all those allotments on a weekly and/or 
biweekly basis? What other jobs are going to be left undone?
    Prior to the signing of the settlement agreement in Tucson 
in April, Forest Service employees were on the ground trying to 
coerce permittees into agreeing to fence their allotments off 
from streams without protecting their rights of appeal. Now the 
Forest Service employees are on the ground telling permittees 
that they are changing the way they are doing business because 
they have a court order. In a Forest Service press release the 
agency refers to the agreement as a stipulation. It is bad 
enough that the Forest Service betrayed us in this manner, but 
then they lie about it!
    The question being discussed today is the impact of Federal 
land use policies on rural communities. I am here to tell you 
that if the Forest Service persists in its present manner there 
will be no rural communities for you to worry about.
    Catron County is made up of 2,500 people in Southwestern 
New Mexico, down from 2,900 just a few years ago. The 
traditional major industries for the County have been logging 
and livestock. The timber industry was literally killed by the 
Forest Service because of lawsuits filed by radical 
environmentalists, nearly breaking the County. Livestock is now 
the major component in the economy. Without livestock 
production, there will be no economy in Catron County.
    We hear a lot about how tourism will make up the difference 
when we lose production industries but that simply isn't true. 
When recreationists come to our area, they come with ice chests 
filled with food and drink bought at big city discount stores. 
What little they buy at local markets isn't enough for them to 
make a living on. They arrive with gas tanks filled with low 
price gas purchased at big city discounts. They are seasonal 
and can't be counted on month in and month out for rural 
businesses to pay the bills and keep the doors open.
    Catron County is no different from every other rural county 
in the West. Maybe we saw what was coming a little sooner than 
most and have tried to put in place policies that would protect 
our economy like land use planning committees.
    Another question I would like for you to consider is who is 
funding the litigation that is driving Federal land use 
policies. The Tucson, Arizona based Southwest Center For 
Biological Diversity, who by the way has just petitioned the 
Department of Interior to list two more species directed at 
removing cattle from the Gila Forest, has filed some 75 
lawsuits under the citizens lawsuit provisions I mentioned 
earlier.
    According to a story in the Albuquerque Journal written by 
Mike Taugher, the only reporter in the Southwest listed as a 
contact in the Forest Service's Communication Plan, in 1995 the 
Southwest Center paid only $2,201 in legal expenses. The 
group's director states that they don't pay for lawsuits.
    There are two reasons that these radical environmentalists 
don't pay for their lawsuits. One is that they are funded by 
nonprofit foundations who are answerable to no one for their 
actions. According the news article, the Pew Charitable Trust, 
a Philadelphia-based foundation, pumped nearly $700,000 into 
radical environmental groups between 1995 and 1997. Another 
nearly $228,000 was provided to these same groups via four 
other sources including Ted Turner, the Levinson Foundation, 
and the W. Alton Jones Foundation.
    There are no voters in these foundations, no customers, no 
investors. They are tax exempt and most of them are based in 
the East while they are setting policy thousands of miles away 
in the West where they don't have to see or live with the 
consequences of their actions.
    The other source of money for these radicals is you folks, 
the Federal Government. Until recently the Justice Department 
had a policy of simply paying costs to the suing party any time 
they lost or settled a suit. We have been told that in the 
future the policy will be for the suing party to have to at 
least fight to have their costs paid. Believe it when you see 
it.
    I don't want to mislead you. Natural resource industries 
are filing suits against the agencies ourselves. We are left 
with no other choice. The agencies are not protecting our 
interests and are not even taking our interests into 
consideration. But we have no foundations to pump hundreds of 
thousands of dollars into our efforts. We are funding our 
litigation with bake sales, dances and ropings, and the $5 and 
$10 contributions of widows who know we are right and that we 
must win if our rural areas are to survive.
    In closing, I would like to say that I am proud to be 
before you today and that I am proud to be in our great 
nation's capitol. But I am not. I am sick at heart and soul at 
the shape I find our country in today. I am sick that the hard 
earned dollars of New Mexico's cattle producers had to be spent 
for me to be here today to tell you how our government is 
literally killing us. I can only hope and pray that all of you 
will do something to stop this madness before the situation 
gets any worse.
    Thank you.
                                ------                                


 Statement of Donald R. Wesson, Pulp & Paperworkers' Resource Council, 
                    Southern Pine Regional Director

    Mr. Chairman, I want to thank you and this Committee for 
holding this very important hearing, and for allowing me to 
participate.
    My name is Don Wesson. I am the vice president of United 
Paperworkers' International Union Local 1533 located in 
McGehee, Arkansas. I serve as the southern pine regional 
director of the Pulp & Paperworkers' Resource Council. I am 
currently employed in the pulp & paper industry as an 
industrial mechanic. I reside in Desha County, Arkansas and I'm 
a constituent of the 4th Congressional District.
    A few years ago, I was like most all Americans. I went to 
work, paid my share of taxes, voted in most elections, and 
depended on my elected officials to take care of me. I've 
always felt my freedoms, as well as my property was protected. 
After all, America was founded under the Constitution. One day 
I heard some disturbing news of how a spotted owl put thousands 
of my union brothers and sisters out of a job in the very 
industry in which I am employed. I started paying more 
attention to what my government was doing, and realized some of 
those elected officials in which I placed my trust, was not 
looking out for my well being, or the well being of America. It 
was then that I realized that the world is run by those who 
show up, and I would start showing up. It was at that time I 
got involved with the PPRC.
    The Pulp & Paperworkers' Resource Council is a grassroots 
group consisting of labor workers who work in the pulp, paper 
and woodproducts industries of America. We have lost thousands 
of jobs in our industry in the past few years due to various 
government regulations. I'm here today to address ``The 
American Heritage Rivers.'' We feel this is just another 
governmental program that will end up hurting our communities 
and cost us more industry jobs.
    I live in Desha County Arkansas, which borders the mighty 
Mississippi River, the life blood of America. The Mississippi 
River is among the top ten rivers that is already nominated as 
heritage rivers. I have had several meetings with the Office of 
Council on Environmental Quality, concerning this nomination. I 
have met with Mr. Ray Clark, Associate Director of the CEQ as 
well as the chairman of American Heritage Rivers, on three 
different occasions. Mr. Clark keeps insisting that the 
American Heritage Rivers is the greatest thing since motherhood 
and apple pie. He expressed that lies are being told about 
American Heritage Rivers. He insisted that there are no new 
regulations, no new money, and this is truly a bottom up 
program. It is community based, and there will be no impact on 
private property. He stated that money was already in place. 
The purpose of this program would be to just manage the rivers, 
and to administer the funds where needed. This is why I have a 
grave concern over this executive order.
    If a ``river community'' is designated for this iniative, 
there are potentially serious negative implications for local 
governments. Depending on the direction the project takes, 
local land use zoning boards could be negated, or completely 
bypassed. There is nothing in the language that would allow a 
designated community, or individual land owners, the ability to 
opt out of this program. Without the right to opt out, a 
private land owner or local government, should be concerned 
about losing any power of income or development of assets, as 
well as its sovereignty.
    The idea of using a ``river navigator'' to coordinate the 
river communities efforts in itself is somewhat a disturbing 
idea. When the person selected can be a Federal or non-Federal 
employee selected jointly by the river community and Federal 
agencies, the potential for conflict of interest exist. Many 
agencies, such as the Department of Interior, Fish and Wildlife 
Service, and the Army Corps of Engineers have become more and 
more active in reducing or restricting the use of our natural 
resources. If the ``river navigator'' is chosen from an agency 
that has a definite preservationist slant, the chances of the 
``river communities'' choosing a plan to the detriment of 
private property rights and industrial development would be 
greatly increased.
    Whenever tourism, economic security, environmental 
protection, and protecting/preserving our heritage are mixed 
into one iniat1ve, the American public becomes skeptical. This 
mixture in the past has meant the decrease in high paying 
industrial jobs. Even when there are tourism jobs created, the 
employees are not paid well, and in many cases are seasonal 
jobs.
    I urge you Mr. Chairman, and this Committee, to stop the 
American Heritage Rivers Initiative. If this program is as 
great as we are told, then the office of the CEQ would not mind 
it having congressional oversight. We do not need 16 different 
governmental agencies and a river navigator to manage our 
rivers, or to regulate our private lands that borders these 
rivers.
    Any proposal that is set up under the premise of 
streamlining government, but yet would still include at least 9 
different cabinet positions, as well as countless other 
government agencies, hardly make this initiative more user 
friendly. Instead, it would just lead to another level of 
bureaucracy that the American public is already weary of.
    If you have any questions concerning how too many levels of 
government bureaucracy affects the jobs in resource based 
industries, you could ask any one of the over one hundred 
thousand workers from the Pacific Northwest who lost their job 
over a spotted owl.
                                ------                                


      Statement of Jack Richardson, Val Verde County Commissioner

    Thank you for the opportunity to testify before the Natural 
Resources Committee on the American Heritage Rivers Initiative 
and the pending application for the Rio Grande. I am Jack 
Richardson, the County Administrator in Val Verde County Texas, 
which is located on the Rio Grande. Val Verde County has an 
estimated population of 48,590, borders the Rio Grande River 
for the entire length of the county and encompasses 3,171 
square miles and 62 square miles of water. I believe that these 
facts qualify Val Verde County to have a voice in any 
initiative that imposes additional Federal regulations upon the 
county. I have lived there for more than 25 years. I know many 
families that have lived and worked there for generations. We 
do not need a Federal initiative to tell us how important the 
Rio Grande is and to recognize the rich culture and heritage 
that exists along the river. We honor our culture and heritage 
every day as we go to work, raise our families and simply live 
life along the river.
    I worked for the U.S. Border Patrol for 32 years. While I 
will not claim to be an expert on the Rio Grande, I have a 
lifetime of experience of working in this region and the Rio 
Grande played a significant role in that work. I would like to 
know how many members of the Blue Ribbon Panel have even seen 
the Rio Grande, perhaps one at the most.
    Now, I understand the Rio Grande is on a list along with 
several other rivers as a potential candidate to be named an 
American Heritage River. Exactly what that would mean for the 
communities and the people who must live and work along the 
river is still not fully known. I know the full impact will not 
be known until the initiative is being implemented. At that 
time, I am afraid it would be too late to stop the initiative. 
The AHRI is another unfunded mandate, of which the true costs 
to the local communities and the impacts on income, property 
rights, production and competitiveness are still unknown. I am 
here today to make sure that the concerns of all those who live 
and work along the river are heard.
    I want it to be fully understood, that non support for the 
Rio Grande nomination flows up and down the river. Many 
communities in my region do not want the strings that come 
attached to Federal programs. I have with me today resolutions 
and letters of non support from counties that are located along 
the Rio Grande or within its watershed. One of those county 
resolutions is from my home county of Val Verde. I have letters 
of opposition from many agriculture organizations and property 
rights organizations. All total I have 77 resolutions and 
letters of non support for the designation of the Rio Grande as 
an American Heritage River. This represents thousands of Texas 
citizens that do not want the AHRI in Texas. Mr. Desmond Smith, 
President of the Trans Texas Heritage Association, also 
traveled to Washington, D.C. to testify on the behalf of the 
membership that represents 15.5 million acres of private land 
in Texas, against the AHRI and a designation for the Rio 
Grande. The San Antonio Express News recently quoted Governor 
Bush as stating ``So when it comes to the ONRW or the American 
Heritage Rivers, whatever it is, I'm against. I will not, so 
long as I'm governor, concede the sovereign rights of Texas.'' 
Senator Kay Bailey Hutchison of Texas and Congressman Henry 
Bonilla (R-TX-23) have both sent letters to the Council on 
Environmental Quality (CEQ) in opposition to the Rio Grande 
designation. Congressman Bonilla requested his Congressional 
District not be included in the initiative and seven other 
members of the Texas delegation also requested their districts 
not be included in the initiative. There are 800 miles of the 
Rio Grande that run through the Congressman's district. For 
some reason CEQ ignored Congressman Bonilla's opt out letter 
and further misrepresented his position by stating in a letter 
to Senator Hutchison that Congressman Bonilla supported a 
designation for the Rio Grande. Congressman Bonilla had to send 
another letter to CEQ restating his position.
    Regardless of our expressed opposition against the 
designation of the Rio Grande as an American Heritage River, 
the nomination has continued to proceed. How many more 
resolutions do we need to pass, how many more letters do we 
need to write and how many more times do we need to testify 
before Congress that we do not want the Rio Grande designated 
as an American Heritage River? When is CEQ and the Blue Ribbon 
Panel going to listen to us?
    From the beginning there has been a back door attempt to 
get the Rio Grande listed as an American Heritage River, 
regardless of the views of those who live and work along the 
river. There have been secret meetings, attempts to prevent the 
public from having a voice at so called ``public hearings'' and 
an unwillingness to accept the fact that the AHRI is not wanted 
for the Rio Grande.
    I would like to quote an excerpt from the letter sent to 
Senator Hutchison by the CEQ. It was dated May 7, 1998, and 
signed by Kathleen McGinty. It states ``The American Heritage 
Rivers initiative is one hundred percent locally-driven.'' I 
ask this Committee, if CEQ was really listening to the local 
communities, would the Rio Grande still be in consideration for 
nomination?
    Not only is the AHRI in the process of being imposed on the 
local communities against their wishes, but this is another 
layer of bureaucracy that is not necessary. Do you have any 
idea how many Federal agencies already have their toes dipped 
in the Rio Grande and are controlling every action involving 
that river? I can assure you that we have enough problems 
working with the EPA and the U.S. Fish and Wildlife Service, 
the Army Corps of Engineers and the International Boundary and 
Water Commission, under the current authority and programs they 
have. These Federal agencies do not need to have their 
authority expanded under any program, especially a program that 
still does not have standards for evaluation and guidelines for 
establishing priorities.
    Those of us who live along the Rio Grande understand better 
than anyone the need to clean it up. We all want to live in a 
clean environment, but creating another layer of government to 
work through is not the way to go about it.
    This is an international river and it will take 
international cooperation to clean it up. Just take a few 
minutes to visit with any one who works or lives along the 
river and you will soon come to realize that the Rio Grande 
cannot be treated like any other river. The culture and 
heritage that makes the river so special also creates many 
unique problems we must address. I do not see that this 
initiative will address our unique situation, which will just 
serve to create more problems.
    From the very beginning there has been a cloud of questions 
hanging over this initiative. What would a designation mean for 
river communities? What benefits or drawbacks would this hold 
for those who live along the river? And if it is such a good 
deal for the communities, why have the supporters felt the need 
to meet in secret and misrepresent the views of those who 
oppose the AHRI? These questions have never been answered and I 
suspect that they will not be answered.
    The American Heritage Rivers Initiative has been imposed 
from the top down from the very beginning. Well, I am here 
today to speak on behalf of the many counties, communities, 
citizens, and organizations who are represented by these 
letters and resolutions of non support. They send a loud and 
clear message that we are opposed to the Rio Grande being 
designated as an American Heritage River. Thank You. I would be 
pleased to answer any questions at this time.
                                ------                                


Statement of Hon. Barbara Cubin, a Representative in Congress from the 
                            State of Wyoming

    Thank you Mr. Chairman for holding this important oversight 
hearing. Although there are many issues that I could speak to 
today, I want to concentrate on one that is on the minds of my 
constituents. That is the Clinton Administration's proposal to 
reform the 25 percent timber payments to counties.
    As far as I am concerned the proposal is merely an attempt 
of this Administration to conform to the extreme environmental 
agenda of the Sierra Club: to stop all logging in the lower 48 
states!
    For nearly 100 years Congress has honored its compact with 
people living in and around national forests. The compact calls 
for the Federal Government to share 25 percent of the gross 
receipts it generates from timber production on forest service 
lands. To counties which are heavily federalized, the compact 
also infers that the Federal lands will be managed to help 
drive the economic engines of rural communities.
    Taking away the 25 percent fund and replacing it with this 
entitlement program may benefit some counties, but only for the 
short term. What we must do is look at the big picture. By 
adopting the entitlement program timber production would drop 
significantly, much more than we've seen in the past 12 years, 
saw mills would close, and those in my state that have depended 
on the timber would be out of work.
    Through this proposal the Clinton Administration is asking 
Congress to walk away from that compact and to replace the 
existing relationship with an entitlement program which would 
be subject to the whims of the congressional appropriations 
committees.
    Like I said before, this proposal is a precursor to ending 
Federal timber harvesting! Federal 25 percent and PILT payments 
are only a small fraction of the total economic impact 
generated through the sale of Federal timber.
    Even if Congress fully funds this wrongheaded proposal, 
many communities will suffer irreparable damage due to the loss 
of the basic industries which are the core of the local 
economies in these communities.
    Congress must not walk away from its compact with the 
school children of rural America! We must not turn our backs on 
rural communities that depend on timber production to put food 
on their tables and clothes on their backs!
    Again, Mr. Chairman, I appreciate you holding this hearing. 
I look forward to hearing from the witnesses.

[GRAPHIC] [TIFF OMITTED] T9510.014

[GRAPHIC] [TIFF OMITTED] T9510.015

[GRAPHIC] [TIFF OMITTED] T9510.016

[GRAPHIC] [TIFF OMITTED] T9510.017

[GRAPHIC] [TIFF OMITTED] T9510.018

[GRAPHIC] [TIFF OMITTED] T9510.019

[GRAPHIC] [TIFF OMITTED] T9510.020

[GRAPHIC] [TIFF OMITTED] T9510.021

[GRAPHIC] [TIFF OMITTED] T9510.022

[GRAPHIC] [TIFF OMITTED] T9510.023

[GRAPHIC] [TIFF OMITTED] T9510.024

[GRAPHIC] [TIFF OMITTED] T9510.025

[GRAPHIC] [TIFF OMITTED] T9510.026

[GRAPHIC] [TIFF OMITTED] T9510.027

[GRAPHIC] [TIFF OMITTED] T9510.028

[GRAPHIC] [TIFF OMITTED] T9510.029

[GRAPHIC] [TIFF OMITTED] T9510.030

[GRAPHIC] [TIFF OMITTED] T9510.031

[GRAPHIC] [TIFF OMITTED] T9510.032

[GRAPHIC] [TIFF OMITTED] T9510.033

[GRAPHIC] [TIFF OMITTED] T9510.034

[GRAPHIC] [TIFF OMITTED] T9510.035

[GRAPHIC] [TIFF OMITTED] T9510.036

[GRAPHIC] [TIFF OMITTED] T9510.037

[GRAPHIC] [TIFF OMITTED] T9510.038

[GRAPHIC] [TIFF OMITTED] T9510.039

[GRAPHIC] [TIFF OMITTED] T9510.040

[GRAPHIC] [TIFF OMITTED] T9510.041

[GRAPHIC] [TIFF OMITTED] T9510.042

[GRAPHIC] [TIFF OMITTED] T9510.043

[GRAPHIC] [TIFF OMITTED] T9510.044

[GRAPHIC] [TIFF OMITTED] T9510.045

[GRAPHIC] [TIFF OMITTED] T9510.046

[GRAPHIC] [TIFF OMITTED] T9510.047

[GRAPHIC] [TIFF OMITTED] T9510.048

[GRAPHIC] [TIFF OMITTED] T9510.049

[GRAPHIC] [TIFF OMITTED] T9510.050

[GRAPHIC] [TIFF OMITTED] T9510.051

[GRAPHIC] [TIFF OMITTED] T9510.052

[GRAPHIC] [TIFF OMITTED] T9510.053

[GRAPHIC] [TIFF OMITTED] T9510.054

[GRAPHIC] [TIFF OMITTED] T9510.055

[GRAPHIC] [TIFF OMITTED] T9510.056

[GRAPHIC] [TIFF OMITTED] T9510.057

[GRAPHIC] [TIFF OMITTED] T9510.058

[GRAPHIC] [TIFF OMITTED] T9510.059

[GRAPHIC] [TIFF OMITTED] T9510.060

[GRAPHIC] [TIFF OMITTED] T9510.061

[GRAPHIC] [TIFF OMITTED] T9510.062

[GRAPHIC] [TIFF OMITTED] T9510.063

[GRAPHIC] [TIFF OMITTED] T9510.064

[GRAPHIC] [TIFF OMITTED] T9510.065

[GRAPHIC] [TIFF OMITTED] T9510.066

[GRAPHIC] [TIFF OMITTED] T9510.067

[GRAPHIC] [TIFF OMITTED] T9510.068

[GRAPHIC] [TIFF OMITTED] T9510.069

[GRAPHIC] [TIFF OMITTED] T9510.070

[GRAPHIC] [TIFF OMITTED] T9510.071

[GRAPHIC] [TIFF OMITTED] T9510.072

[GRAPHIC] [TIFF OMITTED] T9510.073

[GRAPHIC] [TIFF OMITTED] T9510.074

[GRAPHIC] [TIFF OMITTED] T9510.075

[GRAPHIC] [TIFF OMITTED] T9510.076

[GRAPHIC] [TIFF OMITTED] T9510.077

[GRAPHIC] [TIFF OMITTED] T9510.078

[GRAPHIC] [TIFF OMITTED] T9510.079

[GRAPHIC] [TIFF OMITTED] T9510.080

[GRAPHIC] [TIFF OMITTED] T9510.081

[GRAPHIC] [TIFF OMITTED] T9510.082

[GRAPHIC] [TIFF OMITTED] T9510.083

[GRAPHIC] [TIFF OMITTED] T9510.084

[GRAPHIC] [TIFF OMITTED] T9510.085

[GRAPHIC] [TIFF OMITTED] T9510.086

[GRAPHIC] [TIFF OMITTED] T9510.087

[GRAPHIC] [TIFF OMITTED] T9510.088

[GRAPHIC] [TIFF OMITTED] T9510.089

[GRAPHIC] [TIFF OMITTED] T9510.090

[GRAPHIC] [TIFF OMITTED] T9510.091

[GRAPHIC] [TIFF OMITTED] T9510.092

[GRAPHIC] [TIFF OMITTED] T9510.093

[GRAPHIC] [TIFF OMITTED] T9510.094

[GRAPHIC] [TIFF OMITTED] T9510.095

[GRAPHIC] [TIFF OMITTED] T9510.096

[GRAPHIC] [TIFF OMITTED] T9510.097

[GRAPHIC] [TIFF OMITTED] T9510.098

[GRAPHIC] [TIFF OMITTED] T9510.099

[GRAPHIC] [TIFF OMITTED] T9510.100

[GRAPHIC] [TIFF OMITTED] T9510.101

[GRAPHIC] [TIFF OMITTED] T9510.102

[GRAPHIC] [TIFF OMITTED] T9510.103

[GRAPHIC] [TIFF OMITTED] T9510.104

[GRAPHIC] [TIFF OMITTED] T9510.105

[GRAPHIC] [TIFF OMITTED] T9510.106

[GRAPHIC] [TIFF OMITTED] T9510.107

[GRAPHIC] [TIFF OMITTED] T9510.108

[GRAPHIC] [TIFF OMITTED] T9510.109

[GRAPHIC] [TIFF OMITTED] T9510.110

[GRAPHIC] [TIFF OMITTED] T9510.111

[GRAPHIC] [TIFF OMITTED] T9510.112

[GRAPHIC] [TIFF OMITTED] T9510.113

[GRAPHIC] [TIFF OMITTED] T9510.114

[GRAPHIC] [TIFF OMITTED] T9510.115

[GRAPHIC] [TIFF OMITTED] T9510.116

[GRAPHIC] [TIFF OMITTED] T9510.117

[GRAPHIC] [TIFF OMITTED] T9510.118

[GRAPHIC] [TIFF OMITTED] T9510.119

[GRAPHIC] [TIFF OMITTED] T9510.120

[GRAPHIC] [TIFF OMITTED] T9510.121

[GRAPHIC] [TIFF OMITTED] T9510.122

[GRAPHIC] [TIFF OMITTED] T9510.123

[GRAPHIC] [TIFF OMITTED] T9510.124

[GRAPHIC] [TIFF OMITTED] T9510.125

[GRAPHIC] [TIFF OMITTED] T9510.126

[GRAPHIC] [TIFF OMITTED] T9510.127

[GRAPHIC] [TIFF OMITTED] T9510.128

[GRAPHIC] [TIFF OMITTED] T9510.129

[GRAPHIC] [TIFF OMITTED] T9510.130

[GRAPHIC] [TIFF OMITTED] T9510.131


</pre></body></html>
